<html>
<title> - GAO FINDINGS ON SUPERFUND CLEANUP</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
                   GAO FINDINGS ON SUPERFUND CLEANUP
=======================================================================


                                HEARING

                               before the

               SUBCOMMITTEE ON NATIONAL ECONOMIC GROWTH,
               NATURAL RESOURCES, AND REGULATORY AFFAIRS

                                 of the

                        COMMITTEE ON GOVERNMENT
                          REFORM AND OVERSIGHT
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION
                               __________

                           FEBRUARY 13, 1997
                               __________

                           Serial No. 105-15
                               __________

Printed for the use of the Committee on Government Reform and Oversight




                    U.S. GOVERNMENT PRINTING OFFICE
41-517                       WASHINGTON : 1997
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001






              COMMITTEE ON GOVERNMENT REFORM AND OVERSIGHT

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
J. DENNIS HASTERT, Illinois          TOM LANTOS, California
CONSTANCE A. MORELLA, Maryland       ROBERT E. WISE, Jr., West Virginia
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
STEVEN SCHIFF, New Mexico            EDOLPHUS TOWNS, New York
CHRISTOPHER COX, California          PAUL E. KANJORSKI, Pennsylvania
ILEANA ROS-LEHTINEN, Florida         GARY A. CONDIT, California
JOHN M. McHUGH, New York             CAROLYN B. MALONEY, New York
STEPHEN HORN, California             THOMAS M. BARRETT, Wisconsin
JOHN L. MICA, Florida                ELEANOR HOLMES NORTON, Washington, 
THOMAS M. DAVIS, Virginia                DC
DAVID M. McINTOSH, Indiana           CHAKA FATTAH, Pennsylvania
MARK E. SOUDER, Indiana              TIM HOLDEN, Pennsylvania
JOE SCARBOROUGH, Florida             ELIJAH E. CUMMINGS, Maryland
JOHN SHADEGG, Arizona                DENNIS KUCINICH, Ohio
STEVEN C. LaTOURETTE, Ohio           ROD R. BLAGOJEVICH, Illinois
MARSHALL ``MARK'' SANFORD, South     DANNY K. DAVIS, Illinois
    Carolina                         JOHN F. TIERNEY, Massachusetts
JOHN E. SUNUNU, New Hampshire        JIM TURNER, Texas
PETE SESSIONS, Texas                 THOMAS H. ALLEN, Maine
MIKE PAPPAS, New Jersey                          ------
VINCE SNOWBARGER, Kansas             BERNARD SANDERS, Vermont 
BOB BARR, Georgia                        (Independent)
------ ------
                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                       Judith McCoy, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

   Subcommittee on National Economic Growth, Natural Resources, and 
                           Regulatory Affairs

                   DAVID MCINTOSH, Indiana, Chairman
JOHN E. SUNUNU,                      BERNARD SANDERS, Vermont
J. DENNIS HASTERT, Illinois          JOHN F. TIERNEY, Massachusetts
JOE SCARBOROUGH, Florida             JIM TURNER, Texas
JOHN B. SHADEGG, Arizona             PAUL E. KANJORSKI, Pennsylvania
STEVEN LaTOURETTE, Ohio              GARY A. CONDIT, California
VINCE SNOWBARGER, Kansas             DENNIS KUCINICH, Ohio
BOB BARR, Georgia                    CHAKA FATTAH, Pennsylvania
------ ------

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
                     Mildred Webber, Staff Director
                Chip Griffin, Professional Staff Member
                           Cindi Stamm, Clerk
           Dave McMillen, Minority Professional Staff Member








                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 13, 1997................................     1
Statement of:
    Guerrero, Peter, Director, Environmental Protection Issues, 
      Resources, Community and Economic Development Division, 
      General Accounting Office, accompanied by Stanley 
      Czerwinski, Associate Director; Jim Donaghy, Assistant 
      Director; Mitchell Karpman, mathematical statistician; and 
      Elliot Laws, Assistant Administrator for Solid Waste and 
      Emergency Response.........................................   105
    Klemm, Rebecca J., Ph.D., Klemm Analysis Group; and James 
      Wholey, Senior Advisor for Evaluation Methodology, General 
      Accounting Office..........................................   180
    Mica, Hon. John L., a Representative in Congress from the 
      State of Florida...........................................   176
    Pallone, Hon. Frank, Jr., a Representative in Congress from 
      the State of New Jersey....................................    32
    Parris, Don, president, Environmental Remediation 
      Consultants, Inc.; Richard Castle, president, Castle 
      Concepts Consultants; and John F. Lynch, Jr., senior 
      partner, Carpenter, Bennett, and Morrissey.................    49
Letters, statements, etc., submitted for the record by:
    Guerrero, Peter, Director, Environmental Protection Issues, 
      Resources, Community and Economic Development Division, 
      General Accounting Office, prepared statement of...........   108
    Klemm, Rebecca J., Ph.D., Klemm Analysis Group, prepared 
      statement of...............................................   182
    Laws, Elliot, Assistant Administrator for Solid Waste and 
      Emergency Response:
        Information concerning methodologies used by EPA.........   162
        Prepared statement of....................................   124
    Lynch, John F., Jr., senior partner, Carpenter, Bennett, and 
      Morrissey, prepared statement of...........................    61
    McIntosh, Hon. David M., a Representative in Congress from 
      the State of Indiana, prepared statement of................     4
    Pallone, Hon. Frank, Jr., a Representative in Congress from 
      the State of New Jersey, prepared statement of.............    36
    Parris, Don, president, Environmental Remediation 
      Consultants, Inc., and Richard Castle, president, Castle 
      Concepts Consultants, prepared statement of................    52
    Sanders, Hon. Bernard, a Representative in Congress from the 
      State of Vermont, prepared statement of....................    19
    Waxman, Hon. Henry A., a Representative in Congress from the 
      State of California:
        Briefing memorandum for hearing..........................    41
        Certification of non-receipt of Federal funds............    46
        Prepared statement of....................................    24






                   GAO FINDINGS ON SUPERFUND CLEANUP

                              ----------                              


                      THURSDAY, FEBRUARY 13, 1997

                  House of Representatives,
 Subcommittee on National Economic Growth, Natural 
                 Resources, and Regulatory Affairs,
              Committee on Government Reform and Oversight,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:15 a.m., in 
room 2154, Rayburn House Office Building, Hon. David M. 
McIntosh (chairman of the subcommittee) presiding.
    Present: Representatives McIntosh, Sununu, Shadegg, Snow-
barger, Barr, Sanders, Waxman, Fattah, Kucinich, Turner, and 
Tierney.
    Staff present: Mildred Webber, staff director; Todd 
Gaziano, chief counsel; Larisa Dobriansky, senior counsel; Chip 
Griffin, professional staff member; Cindi Stamm, clerk; Phil 
Barnett, minority chief counsel; Phil Schiliro, minority staff 
director; Elizabeth Mundinger, minority counsel; David 
McMillen, minority professional staff member; and Ellen Rayner, 
minority chief clerk.
    Mr. McIntosh. A quorum being present, the Subcommittee on 
National Economic Growth, Natural Resources, and Regulatory 
Affairs will come to order. As I have previously informed the 
ranking member, Mr. Waxman, we will limit opening statements to 
the chairman and the ranking member of the subcommittee.
    Mr. Waxman. Mr. Chairman, it has been the tradition of 
every subcommittee that I've served on that all Members are 
given the opportunity for a brief opening statement. Yesterday, 
I attended the Health and Environment Subcommittee, chaired by 
Mr. Bilirakis. We had extensive comments by the Members. Each 
Member was given the courtesy to say what they had to say and 
they were able to lay out their concerns.
    I see no reason why we can't have all Members be afforded 
that opportunity. If you're going to be calling over there to 
the left, and he's not wishing to make an opening statement, 
since he's the only one who can deny your suggestion, that's 
fine with me. But I would like to say that Members' rights are 
being ignored.
    Mr. McIntosh. I'm going to be following the precedent set 
by Chairman Burton yesterday for the full committee.
    Mr. Waxman. Mr. Chairman, are you suggesting you're going 
to have opening statements by the chairman, the ranking member 
of the subcommittee and then the chairman of the full committee 
and ranking member of the full committee?
    Mr. McIntosh. Yes. You're going to get your opening 
statement. I'm sorry, there was a misunderstanding, both of you 
will be able to give your opening statements.
    The purpose of this hearing is to examine the pace of 
Superfund cleanups at more than 1,200 Superfund sites from 
around the country. I wanted to, in particular, thank Chairman 
Burton for continuing the request of former Chairman Clinger to 
the General Accounting Office to study this issue. I'm sure 
that all members of this subcommittee agree with the need to 
put politics aside and examine the important public health and 
environmental impacts of this issue.
    I know that Mr. Waxman, our full committee ranking member, 
has been active on environmental issues for much of his career. 
And although we sometimes disagree on exactly what the best 
method and the fastest and most effective way to achieve that 
end is, we both do share the goal of cleaning up the 
environment. I especially want to thank Mr. Waxman, the ranking 
member of the full committee, Mr. Sanders, ranking member of 
the subcommittee and their staff for persuading EPA to 
reconsider and join us today to testify on the delays in 
cleaning up Superfund sites.
    Now, at the subcommittee's hearing on the Superfund program 
last year in May, we heard from the Tielmann family. They've 
been dealing with this issue for about 13 years and counting 
and it's taken that long for EPA to improperly treat the 
Superfund site on their farm. It would have been bad enough if 
the site had remained untouched for all that time, but instead, 
the three Tielmann children were exposed to heightened levels 
of asbestos and other dangerous toxins. This is because the 
existing asbestos on their farm was dug up and not removed. In 
addition, the truckloads of dirt from another toxic wastesite 
were dumped on the property as part of the final cleanup. The 
last I heard, EPA is still studying what to do with the 
Tielmanns' farm. Now, when innocent children are endangered, 
EPA needs to admit that there is a problem.
    The purpose of today's hearing is to examine the extent of 
that problem. I want to thank all of the witnesses for their 
testimony. As most of our witnesses will attest, the goal of 
fast, fair, and effective cleanups has gotten lost. There are 
several contributing factors to this delay, endless disputes 
over what should be done, and litigation over who should pay 
for it. However, the focus of today's hearing is not so much on 
the causes of that delay, but on whether the job is getting 
done at all and in what timeframe.
    The most critical question in assessing the problems with 
the current Superfund program is whether the time to assess 
cleanup and assess whether a site should be listed has 
improved, remained the same, or gotten worse since the program 
began in 1986. When Congress reauthorized the Superfund program 
in 1986, it set a statutory goal of 4 years to assess a site 
and decide whether to place it on the National Priority List. 
In 1986, it took about 4 years to make that determination. 
GAO's current study, which is based on EPA's own data, shows 
that it is now taking 9.4 years on average to list a non-
Federal site.
    In 1986, the average time to clean up a Superfund site that 
was placed on the National Priorities List was less than 4 
years. In 1993, EPA established an expectation of 5 years to 
clean up a site. But by 1996, the cleanups were averaging 10.6 
years. Once again, that is more than twice the 1993 goal and 
about three times the average when Superfund was reauthorized 
in 1986. In 1996, last year, the combined average time to list 
a site and then clean it up is a staggering 20 years. Now, 
regardless of the causes, there should be no covering up the 
fact that something is seriously wrong with the Superfund 
program.
    Based on current trends, things may get worse before they 
get better. Even if the administration does do a better job, 
the sheer number of potential Superfund sites is staggering. 
The total number of sites on the National Priority List as of 
last November was 1,205. EPA has been adding about 16 sites per 
year to that National Priority List for the last 4 years, but 
there are an estimated 1,400 to 2,300 additional sites that 
potentially should be added. If EPA can only clean up 64 sites 
per year and is only taking 16 new sites per year, we may never 
be able to tackle this problem. Man may go the way of the 
dinosaurs before all the cleanups are done.
    If EPA is defensive about the pace of cleanups, then I 
welcome their testimony on what the different causes of the 
delays are. I'm sure that past Congresses are partly to blame 
for enacting a hydra-headed litigation monster that is the 
Superfund law. And there is certainly enough blame to go 
around. But I don't think that it is constructive for people to 
try to evade the hard facts about the cleanup delays by arguing 
over methodology. GAO has a sound methodology and the only one 
that compares the same data over the relevant period of years. 
And I'm very pleased to have their report today, to give us a 
sense of what the nature of the problem is.
    Before we can solve a problem, we must first admit that the 
problem exists. That is not the sense I get when I read the 
administration's prepared testimony. EPA's prepared testimony 
suggests the agency is merely rearranging the decks on what 
seems to be a floundering ocean liner. Now, I believe the 
Members of both sides of the aisle and all families living near 
the Superfund sites would find that unacceptable. In fact, 
EPA's own figures for 1995 show that less than half of the 
Superfund budget is spent on direct cleanup efforts. Forty 
million Americans who live within the 4 mile radius of a toxic 
wastesite and millions of their children who live there want to 
know the truth, and they want a program that spends at least as 
much on cleanups as on administrative and bureaucratic overhead 
and litigation.
    In short, the American taxpayers deserve better, and I look 
forward to hearing the testimony of all the witnesses. I would 
now like to recognize our ranking subcommittee member, Mr. 
Sanders, for an opening statement.
    Mr. Sanders, welcome to our committee.
    [The prepared statement of Hon. David M. McIntosh follows:]
    [GRAPHIC] [TIFF OMITTED] T1517.001
    
    [GRAPHIC] [TIFF OMITTED] T1517.002
    
    [GRAPHIC] [TIFF OMITTED] T1517.003
    
    [GRAPHIC] [TIFF OMITTED] T1517.004
    
    [GRAPHIC] [TIFF OMITTED] T1517.005
    
    [GRAPHIC] [TIFF OMITTED] T1517.006
    
    [GRAPHIC] [TIFF OMITTED] T1517.007
    
    [GRAPHIC] [TIFF OMITTED] T1517.008
    
    [GRAPHIC] [TIFF OMITTED] T1517.009
    
    [GRAPHIC] [TIFF OMITTED] T1517.010
    
    [GRAPHIC] [TIFF OMITTED] T1517.011
    
    [GRAPHIC] [TIFF OMITTED] T1517.012
    
    [GRAPHIC] [TIFF OMITTED] T1517.013
    
    Mr. Sanders. Thank you very much, Mr. Chairman. And, Mr. 
Chairman, thank you very much for holding this hearing today. 
The State of Vermont, that I represent, is one of the most 
environmentally conscious States in the country. We are very 
concerned about toxic dumps that we have in our State and 
throughout this country and want to see them cleaned up as 
cost-effectively and as quickly as is possible. And, therefore, 
I thank you very much for calling attention to this important 
problem and the whole Superfund program.
    Obviously, however, I hope that we can look objectively at 
the program as it is run today without condemning the program 
from mistakes made in the past. As you know, early on, EPA 
administrators under President Reagan ran into many, many 
problems relating to Superfund and ultimately the chief 
administrator resigned in disgrace. And while we are all 
disturbed about what happened in the early 1980's, and don't 
want to dwell on that issue, I think it is important to bring 
it into the record. What happened in the past is unfortunate, 
the fact that EPA administrators started off in such a bad way 
running the Superfund is unfortunate, but that was yesterday, 
and today is today.
    In the early days of the Superfund, progress reports were 
abysmal and sites were just not started down the pipeline. And 
that meant that future administrators inherited that backlog, 
and that's an important point to be introduced into the record. 
Superfund, as you know, addresses a large and complicated 
problem. It is not necessarily apples and apples. Some sites 
are in terrible condition, difficult to improve, others not so 
bad. There are different toxic chemicals, different terrains 
and different communities at each site.
    As the EPA gains experience, cleanups are getting faster 
and more cost-effective. And recently, the Clinton 
administration adopted major reforms addressing some of the 
problems that we'll be discussing today.
    The general consensus, Mr. Chairman, seems to be that we 
are doing better. In the last 4 years, EPA has cleaned up 250 
Superfund sites, almost double the amount cleaned up in the 
previous 12 years. Let me repeat that. EPA has cleaned up 250 
Superfund sites, almost double the amount cleaned up in the 
previous 12 years. That seems to me to be a pretty good record. 
From 1983 through 1992, EPA completed cleanups on an average of 
fewer than 15 sites per year, while during the first 3 years of 
the Clinton administration, EPA's average soared to 65 sites 
per year. That seems to me to be a pretty good improvement.
    About 75 percent of Superfund sites are either under 
construction or are construction-complete; of the approximately 
1,300 NPL sites, 418 are construction-complete and another 491 
are under construction, and cleanups are now 20 percent faster 
and 25 percent less expensive than under the Reagan and Bush 
administrations. Once again, not perfect, but that seems to be 
a pretty good step forward. Even the large corporations 
affected by the program seem to agree. In a December 1996 
report, an industry group reported, ``EPA's track record is 
substantial, especially in light of the severe obstacles that 
EPA encountered during fiscal year 1996, as it began 
implementation of these reforms.''
    Yet, Mr. Chairman, you say that GAO has come to the 
opposite conclusion. This disparity of opinion concerns me a 
great deal. If we are truly interested in taking an objective 
look at the program and how it is run today, we need to make 
sure we are asking GAO to look at the current program. Now, if 
we want to have a hearing, Mr. Chairman, and I think some of us 
might be interested in doing it, and seeing how Superfund was 
handled in the early 1980's, we can do it. But if we are 
interested in looking at how EPA is functioning with Superfund 
today, let's look at Superfund today.
    I understand that this is a difficult issue because of 
major reforms that have been implemented in the last 5 years. 
But I don't think it's helpful to confuse the issues with 
numbers that are not telling the true story. So this will be an 
interesting hearing for all of us who want to make sure that 
the Superfund cleanup takes place as cost-effectively and as 
rapidly as we possibly can.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Hon. Bernard Sanders follows:]
    [GRAPHIC] [TIFF OMITTED] T1517.014
    
    [GRAPHIC] [TIFF OMITTED] T1517.015
    
    Mr. McIntosh. Thank you, Mr. Sanders. I look forward to 
serving with you on this subcommittee.
    Mr. Sanders. So do I.
    Mr. McIntosh. And I look forward to getting the data out on 
the Superfund issues. Before we turn to Mr. Waxman for his 
opening statement, let me welcome the new members of the 
subcommittee who are here. Mr. Kucinich, welcome.
    Mr. Kucinich. Good to be here.
    Mr. McIntosh. And Mr. Snowbarger, welcome, and also our new 
vice chairman, welcome, I hope you will enjoy being on this 
committee, Mr. Sununu from New Hampshire. The staff mentioned 
you don't have an opening statement at this time, particularly?
    Mr. Sununu. No.
    Mr. McIntosh. OK. Thank you. Mr. Waxman, for your opening 
statement.
    Mr. Waxman. Mr. Chairman, I've been a Member of Congress 
for 22 years. During that time we've had Republican 
administrations and Democratic administrations, and the 
traditions of the House and the rules have always required that 
we treat people fairly. If it's an administration witness, you 
try to put them on first. If it's a colleague who wishes to 
testify, invariably, we put the colleague on first, because our 
colleagues have other business. When Members come to a hearing, 
all Members have been afforded the right for an opening 
statement.
    Mr. Chairman, we received notice of this hearing that was 
going to be on the GAO report, which I think is a very flawed 
report, and when we first heard about the hearing, the 
Environmental Protection Agency wasn't going to testify. We 
thought that was quite inappropriate and worked with you to 
encourage EPA to come and testify so we would have a balanced 
hearing. We also indicated, Mr. Chairman, that we wanted to 
bring in some witnesses that were critical of the GAO and 
requested those witnesses.
    Well, evidently, now that the chairman sees that there is 
going to be some criticism of the point of view that he wants 
to advance, he's come up with some witnesses that he wants to 
put on, but we haven't received notice about these witnesses 
appropriately under the rules and under rule 2, it says, 
``Every member of the committee, unless prevented by unusual 
circumstances, shall be provided with a memorandum at least 3 
calendar days before each meeting or hearing explaining (1) the 
purpose of the meeting; and (2) the names, titles, backgrounds, 
and reasons for appearance of any witnesses.'' And we didn't 
get that notice under the rules.
    I don't know what unusual circumstances there can be that 
would require that we bend the rules. There's another rule that 
says that we get testimony at least 24 hours in advance. We 
didn't get the testimony 24 hours in advance.
    Now, ordinarily if you've got a hearing, you try to let the 
witnesses testify, and most people will not be a stickler to 
the rules, but when I walked in today, Mr. Chairman, you 
indicated you didn't want Mr. Pallone to testify first. You 
didn't want Members to be able to make opening statements. You 
wanted to be sure that the witnesses who agreed with you get to 
testify first; those happen to be a panel of witnesses whose 
names we never received in advance and whose testimony we did 
not receive in the appropriate timeframe. And then you wanted 
to have our witnesses at the very bottom, rather than have them 
maybe together in a panel.
    I'm making a record, Mr. Chairman, that I think that what 
we have is a breakdown in the comity in which Members 
ordinarily get together to try to work out what is a fair 
hearing where all sides can be aired.
    Let me talk about the issue before us, Mr. Chairman; we're 
going to hear some testimony on how quickly we have been 
listing and cleaning up toxic wastesites, and I appreciate the 
fact we're holding this hearing, because we're frustrated by 
stories of long, drawn-out cleanups and we all want sites 
cleaned up quickly. On the other hand, we need to put the 
testimony we hear today in perspective. It's my understanding 
that the GAO's analysis is based on a methodology that is 
flawed. We need to make sure that we do not condemn the program 
as we know it today for the mistakes made in earlier years, 
especially when the current administration has adopted reforms 
that address these problems.
    Sixty-eight million people, including 10 million children, 
live within 4 miles of a toxic wastesite. The Superfund program 
sets up an aggressive plan for listing and cleaning up these 
sites. Unfortunately, during the early days of Superfund, in 
the 1980's, the program was largely ignored by those in charge 
of running it. Rita Lovell, the Republican-appointed EPA 
assistant administrator who first ran this program, went to 
jail for lying to Congress about the Superfund program and the 
first EPA administrator charged with managing Superfund, Ann 
Burford, resigned in disgrace in connection with the same 
controversy.
    A 1983 EPA management review concluded that, ``The Agency 
never mobilized its full resources to implement the Superfund 
program in a coordinated way . . . Top EPA policymakers at 
headquarters were primarily concerned with `prudent fund 
management,' [which] had a significant dampening effect on 
aggressive front-line cleaning-up activities through the 
application of restricted criteria for Federal action.''
    Because of this early neglect, future administrations 
inherited a tremendous backlog of sites that had not yet been 
listed or cleaned up.
    In stark contrast, the Clinton administration adopted wide-
ranging reforms that directly address the long-standing 
problems of long, drawn-out cleanups, including: reducing the 
delay caused by litigation by reaching settlement with 
thousands of de minimis parties (14,000) shortening the time it 
takes to study remedies by starting with a presumptive remedy 
at many sites, and fully implementing the Superfund accelerated 
cleanup model (SACM), which promotes expedited removals of 
dangerous toxic waste. We will be releasing a minority staff 
report on the progress made.
    The progress report on these reforms is impressive: In the 
last 4 years, EPA has cleaned up 250 Superfund sites, almost 
double the amount cleaned up in the previous 12 years. From 
1983 to 1992, EPA completed cleanups on an average of fewer 
than 15 sites per year, while during the first 3 years of the 
Clinton administration, EPA's average soared to 65 sites per 
year. About 75 percent of Superfund sites are either under 
construction or are construction-complete. Of the approximately 
1,300 NPL sites, 418 are construction-complete and another 491 
are under construction. And cleanups are now 20 percent faster 
and 25 percent cheaper than under the Reagan and Bush 
administrations.
    In fact, a group of large corporations that are interested 
in Superfund reforms reported in the December 1996 report, 
``EPA's track record is substantial, especially in light of the 
severe obstacles that EPA encountered during fiscal year 1996 
as it began implementation of these reforms.''
    Today, Mr. Chairman, we're going to hear some testimony 
from the GAO about the Superfund program and how quickly we 
have listed and cleaned up sites. Let's keep in mind that the 
Superfund program today is a very different program than the 
program we had in the 1980's. As we look forward and consider 
what changes still need to be made to improve the program, we 
must recognize the tremendous progress that has been made in 
the last 4 years and we need to make sure that we do not 
inappropriately condemn the Clinton reforms for the neglect of 
earlier administrations.
    Mr. Chairman, this hearing is an appropriate one for our 
subcommittee, the issue is an important one for us to evaluate 
in a fair manner. I would never reject the idea of witnesses 
coming in to say what they have to say, even though I might 
disagree with them. I think it's inappropriate to have the 
rearrangement of the order of witnesses to try to have the 
witnesses that agree with the Chair up front and the witnesses 
that disagree with him down on the bottom. I think that this 
hearing has not been handled the way it should have been, and I 
say that with a great deal of regret, and I want the record to 
reflect it.
    I yield back the balance of my time.
    [The prepared statement of Hon. Henry A. Waxman follows:]
    [GRAPHIC] [TIFF OMITTED] T1517.016
    
    [GRAPHIC] [TIFF OMITTED] T1517.017
    
    [GRAPHIC] [TIFF OMITTED] T1517.018
    
    [GRAPHIC] [TIFF OMITTED] T1517.019
    
    [GRAPHIC] [TIFF OMITTED] T1517.020
    
    [GRAPHIC] [TIFF OMITTED] T1517.021
    
    [GRAPHIC] [TIFF OMITTED] T1517.022
    
    [GRAPHIC] [TIFF OMITTED] T1517.023
    
    Mr. McIntosh. We'll move now to the witnesses. Let me state 
at the beginning, though I have a very different philosophy and 
I think this whole Congress has a different philosophy than the 
past 40 years, that it is perhaps best for us to hear from 
citizens of the United States outside of Washington first and 
then have the Government listen to itself about problems. And 
for that reason, I intend always to have panels with citizen 
witnesses come first and then Government witnesses.
    Now, Representative Pallone has asked if he could go first 
today, because he's got another mark-up over on the Commerce 
Committee, and in order to accommodate his time, I'm happy to 
move him up from the testimony with John Mica later, and we'll 
hear from John later on in the hearing.
    So with that, thank you for coming by, Representative 
Pallone. I appreciate you spending time to come and share your 
experiences on this subject with us. And let me now turn it 
over to you for your statement.

   STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman. And I also want to 
thank the ranking members, Mr. Waxman and Mr. Sanders also for 
the opportunity to testify today.
    As you know, I am a New Jersey resident and represent the 
Sixth District in New Jersey, and I'm very familiar with the 
Superfund's highs and lows. New Jersey has 116 sites on the 
National Priority List, more than any other State in the 
country, and my district alone contains 10 Superfund sites. 
However, I'm here basically to tell you that I'm pleased about 
the EPA's extensive Superfund presence in New Jersey. I know 
that sounds a little strange, but the fact is that there are 
more than 7,000 known contaminated sites in our State.
    If you look at the State sites, it's obviously a lot more 
extensive than the Federal Superfund sites. And for years on a 
bipartisan basis, our State government has worked hard to find 
and remediate toxic sites throughout New Jersey. But we can't 
do much of it on our own, and that's why we're pleased that 
there is a Federal program that is cleaning up the sites in New 
Jersey and why I'm particularly pleased that Superfund is 
working, and I stress, is working in my district.
    In New Jersey almost 70 percent of our 116 sites are either 
being cleaned up or are cleaned up. A great number of the sites 
have not been delisted, only because long-term monitoring is 
still ongoing there, because long-term treatment of ground 
water is still ongoing. But I want to stress again that the 
Superfund program is working in New Jersey. In my State, EPA 
and our State government work hand-in-hand to save people's 
lives and protect their health. And I just wanted to give you 
an example: At the Grand Street Mercury Site in Hoboken, the 
local and State departments of health, together with the EPA, 
took swift action to protect the lives of 34 people living in a 
building that was so contaminated with mercury that residents 
were exhibiting early poisoning symptoms.
    Let me tell you, mercury pollution is sort of a pet concern 
of mine, because it is such an extensive problem in New Jersey, 
and I think many of you know the very damaging effects that 
mercury pollution can have. Today, the EPA is working with the 
State to both remediate that site in Hoboken, that I mentioned 
and to provide for shelter for the evacuated residents.
    Mr. Chairman, I hope that today's hearing will have the 
positive outcome of illuminating ways to speed up cleanups that 
truly protect both human health and the environment. Let me say 
that I understand that there have been some problems with 
Superfund and with some individual site cleanups, and each of 
us can talk about that, but let's be honest and acknowledge 
that those problems were in many respects due to some 
miscalculations on the part of Congress and past 
administrations. For instance, it's clear that in writing the 
original Superfund statute, Congress greatly underestimated the 
original size and complexity of the toxic waste problem in this 
country. And my colleagues, the ranking members, have also 
mentioned, which I think is true, that the program was grossly 
mismanaged during its crucial development phases by former EPA 
officials.
    The truth is that the Superfund program is a very 
complicated answer to a complex problem, and, however, many of 
the complaints that are often repeated about Superfund stem 
more from a lack of understanding about the nature of 
environmental pollution and remediation and, I think, 
unrealistic expectations about Superfund. What many fail to 
recognize is the sheer volume and complexity of the National 
Priorities List, the contamination at any given site on the 
NPL, and the need to develop a whole new generation of 
technology just to treat the contamination.
    What I wanted to do today, in the last few minutes here 
before I conclude, is to talk about a couple of Superfund 
success stories, and maybe that's appropriate. I can begin by 
talking about one in my own district that's very close to my 
heart. This is the Chemical Insecticide Corp., site in Edison, 
NJ, and, in fact, today the EPA is going to announce that the 
offsite cleanup is completed at this site.
    The CIC site manufactured pesticides from 1958 through 
1970. As a result of CIC's operations, the site became heavily 
contaminated with arsenic, organic pesticides, herbicides and 
other hazardous substances. This was basically the product of 
Agent Orange for the Vietnam war. Nearly 77,000 people live 
within a 3 mile radius of this site in New Jersey, however, of 
real concern to residents and me was the contamination that 
migrated offsite to an unnamed stream and the Mill Brook. Both 
of these are used for recreation by local residents, 
particularly children. Because we believed that the offsite 
pollution posed a real threat to the health of Edison, NJ, I 
wrote to the EPA in December 1994 urging the agency to ensure 
full and swift remediation of all offsite contamination. By 
March 1995, EPA had signed a record of decision on the offsite 
contamination and by July of that year, EPA had begun removing 
what was to amount to a total of 13,300 tons of contaminated 
soil.
    EPA completed that removal in December, and the agency has 
also back-filled the excavated areas, restructuring and 
stabilizing the stream beds, the banks, and planting thousands 
of trees and shrubs. And I'm happy to announce today, this is 
really being announced today at this hearing, that the EPA will 
declare the offsite cleanup complete. So in only 2 years the 
EPA has not only responded to our request, but actually 
completed the offsite cleanup.
    And I mentioned mercury contamination of a site in New 
Jersey earlier, but this is my other example, if the committee 
would bear with me. The best example of EPA's work in 
addressing mercury contamination is at the site that's called 
the LCP site in Brunswick, GA. This is an industrial site that 
had many environmental problems and did not come into 
compliance with the law when ordered to on various occasions by 
the State of Georgia. The State actually filed suit to close 
the facility. It's a dangerous site by any standards. Between 
1980 and 1994, 380,000 pounds of mercury literally disappeared 
into thin air, into the atmosphere. The site is also 
contaminated with lead, PCBs and barium.
    And as I've noted before, States can't always get the job 
done on their own. They often lack the expertise or the funds 
to cope with toxic threats. This was clearly the case with the 
LCP site. Within a day of the facility's closure, the State of 
Georgia asked EPA to come in to deal with the threat. That was 
3 years ago. Almost immediately EPA began a removal action to 
mitigate the threat to the surrounding people and environment 
in addition to undertaking the removal action within 1\1/2\ 
years, EPA proposed the site for NPL listing and listed the 
site less than a year later.
    And let me just quickly describe what they did, because I 
think the sheer volume of EPA's work at this site is 
mindboggling. Since February 1994, EPA has removed 450,000 
pounds of mercury, 130,000 tons of contaminated waste, and 20 
tons of asbestos. It has demolished the main process building 
and decontaminated 75,000 tons of steel and building debris. 
The agency has also treated over 30 million gallons of 
contaminated waste water and removed 120,000 gallons of 
contaminated oil from the site. The sheer magnitude of it is 
really mindboggling.
    Perhaps the most impressive thing is EPA's work with a 
developer at the site to tailor the cleanup to the future use 
of the LCP site, because ultimately that's what we want to see 
these sites used for new purposes, and because of the EPA's 
work, a shipbuilder is already looking to purchase the site and 
begin construction of dry docks on an area that is already 
cleaned up. This holds the promise of bringing some 300 high-
skilled jobs to a site that the State of Georgia once tried to 
shut down.
    Now, I use those two examples, but there are many more 
examples like that. And, as has been pointed out, particularly 
in the last few years, the pace of cleanup has accelerated.
    In closing, I just hope that my testimony provides some 
insight into the bright side of the Superfund program and into 
some of the complexities that necessarily arise from such a 
complex undertaking as toxic waste cleanup. If I haven't made 
it clear enough, my message to you and the American people is 
that Superfund, while not perfect, does work. In fact, it often 
works so well and there are people in communities that had a 
very positive experience with the program and would continue to 
welcome the EPA's efforts to help safeguard their well-being 
and restore their lands to productive use.
    I know that you're going to spend a lot of time on this 
issue, and I know that the Commerce Committee, that I'm a 
member of, will also be spending a lot of time on it, but the 
bottom line is, whatever we do with the program, we have to do 
it in a way that improves it, but understand that the program 
right now is very successful in cleaning up sites.
    And, again, I thank you for your attention and for the 
opportunity today.
    [The prepared statement of Hon. Frank Pallone, Jr., 
follows:]
[GRAPHIC] [TIFF OMITTED] T1517.024

[GRAPHIC] [TIFF OMITTED] T1517.025

[GRAPHIC] [TIFF OMITTED] T1517.026

[GRAPHIC] [TIFF OMITTED] T1517.027

    Mr. McIntosh. Thank you, Mr. Pallone. I appreciate you 
coming over, and we'll make your full remarks part of the 
record.
    Let me now call forward the first panel of witnesses, Mr. 
Don Parris, Mr. Richard Castle, and Mr. John Lynch.
    Mr. Waxman. Mr. Chairman, I seek recognition for a point of 
order. Committee rule 2: The minority must receive at least 3 
days notice of the identity of witnesses unless prevented by 
unusual circumstances. This rule was not followed. If I might 
be heard further on it. We didn't learn the identity of the 
witnesses on panel one until yesterday afternoon. The late 
notice has not allowed us ample time to prepare questions or to 
investigate what the witnesses' testimony might be.
    I don't object to hearing the testimony of these witnesses 
today, but I would request that they testify at the end of the 
hearing. This would allow us at least a minimal amount of time 
to prepare for the witnesses' testimony. Delaying the testimony 
of the panel would also allow us to extend the normal 
courtesies to other witnesses that have prepared to be with us; 
delaying the testimony would also allow us to extend the normal 
courtesy to Mr. Laws, a senior official of the EPA.
    Our tradition has always been to allow senior 
administration officials to testify after Members of Congress 
and before the other witnesses. You indicated these witnesses 
are grassroots witnesses, you want to hear from them first. We 
have other grassroots witnesses who will come with testimony 
that disagrees with your position, they happen to be put at the 
bottom.
    But my point of order is on a violation of committee rule 
2, and I assert that point of order at this time.
    Mr. McIntosh. OK. Let me just say the Chair is cognizant of 
Mr. Waxman's concerns here. Adequate notice did go out for the 
hearing that we're having today, and these witnesses, as I 
mentioned, do represent people from outside of Washington, who 
have had real experience in these areas, unlike the fourth 
panel, which are statisticians talking about the methods of 
analysis, and we will proceed to have the hearing as it was 
indicated, with this panel first.
    Mr. Waxman. Mr. Chairman, you indicated that the notice of 
the hearing was given out in an appropriate time, but the rule 
says that the names, titles, background, and reasons for 
appearance of any witnesses. Information on these witnesses 
were not--their names were not submitted to us.
    The only ones who are listed, and I have the notice before 
me and wish to put into the record--the notice that was sent 
out on February 6, 1997, indicating that the only witnesses 
would be the General Accounting Office auditors, Mr. Peter 
Guerrero, Mr. Stanley Czerwinski, Mr. John Donaghy on panel one 
and panel two, Environmental Protection Agency officials, the 
Honorable Carole Browner, Administrator, U.S. EPA (invited). So 
we did not receive the names of the witnesses who are about to 
appear right now. Again, I don't object to their testifying, 
even though the rules have not been followed, but it seems to 
me that they ought not to be ahead of everyone else. And so I 
assert that point of order.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T1517.028
    
    [GRAPHIC] [TIFF OMITTED] T1517.029
    
    Mr. McIntosh. OK. And my understanding is the rules 
recognize that you can have witnesses with less than 3 days 
notice under special circumstances. Since the full committee 
only organized yesterday afternoon, the Chair finds those 
special circumstances to be present and overrules the point of 
order.
    Mr. Waxman. Mr. Chairman, I would like to be heard on a 
last point. We organized yesterday, but we had agreed that the 
subcommittees could call hearings. This hearing was called way 
in advance of yesterday's official organization. We agreed that 
this hearing would go forward, as with other hearings of the 
subcommittees of the Government Reform Committee, and I can 
hardly believe that that could be an excuse for not following 
the rule for these witnesses, when it certainly didn't prevent 
you from following the rules for all the other witnesses that 
are testifying today.
    Mr. McIntosh. And I will just state for the record that the 
minority has had as much notice about these witnesses as we 
have, including receiving copies of their testimony at the same 
time as the majority did, and so we will proceed with the panel 
as scheduled.
    Mr. Waxman. Mr. Chairman, are you ruling my point of order 
out of order?
    Mr. McIntosh. Yes, indeed, I did.
    Mr. Waxman. Then, Mr. Chairman, I appeal the decision of 
the Chair. And I make a point of order noting the absence of a 
quorum.
    Mr. McIntosh. That point of order is overruled. There is a 
quorum.
    Mr. Waxman. Mr. Chairman, a quorum is not present under the 
rules to deal with the appeal of a decision of the Chair.
    Mr. McIntosh. Then the committee will stand in recess until 
a quorum is present.
    [Recess.]
    Mr. McIntosh. The subcommittee will come back to order.
    It is my understanding that the minority would like Mr. 
Sanders to substitute for Mr. Waxman on making that point of 
order.
    Mr. Sanders. No.
    Mr. McIntosh. OK. Then there's no legitimate point of order 
raised. According to rule 9 in the Parliamentarian's office, 
that has to be made by a member of the subcommittee. I will 
recognize Mr. Sanders for the purpose of making that point of 
order if he wishes to.
    [No response.]
    Mr. McIntosh. OK. No point of order. We will proceed to the 
witnesses.
    First, let me ask all of the witnesses to please rise and 
repeat after me.
    [Witnesses sworn.]
    Mr. McIntosh. Let the record show that each of the 
witnesses answered in the affirmative.
    Before we begin taking your testimony, I understand that 
each of you has submitted to the subcommittee your resume and a 
brief statement regarding the receipt of Federal funds, 
pursuant to House Rule XI. I want the record to reflect your 
compliance with that truth in testimony rule, which I 
appreciate your doing.
    Mr. Parris, did you or any of the entities you are 
representing before the subcommittee receive any Federal grant, 
subgrant, contract, or subcontract?
    Mr. Parris. We did not.
    Mr. McIntosh. Mr. Castle, did you or any of the entities 
you are representing before the subcommittee receive any grant, 
subgrant, contract, or subcontract from the Federal Government 
during the fiscal years 1995, 1996, or 1997?
    Mr. Castle. We have not.
    Mr. McIntosh. Mr. Lynch, did you or any of the entities you 
are representing before the subcommittee receive any Federal 
grant, subgrant, contract, or subcontract during the fiscal 
years 1995, 1996, or 1997?
    Mr. Lynch. I have not, sir, and I'm not representing any 
entities.
    Mr. McIntosh. Thank you. I ask unanimous consent to make 
the witnesses' written certifications part of the record.
    Mr. Waxman. Mr. Chairman, since it's the first time we have 
come to this issue of the certification of the rule, I 
understand that witnesses, all witnesses, have been given a 
certification of nonreceipt of Federal funds by this 
subcommittee, and the witnesses have been asked to sign it. I 
find that at odds with the rule, and I certainly would urge 
witnesses to be very wary about signing something which might 
be inadvertently incorrect, because in signing such a statement 
they would subject themselves to criminal penalties.
    The rule, as I see it, says, ``Each committee shall, to the 
greatest extent practicable, require witnesses who appear 
before it to submit in advance written statements of proposed 
testimony and limit their initial oral presentation . . . In 
the case of witnesses appearing in a nongovernmental capacity, 
a written statement of proposed testimony shall include a 
curriculum vitae and a disclosure of the amount and source, by 
agency and program, of any Federal grant or subgrant thereof, 
or contract or subcontract thereof, received during the current 
fiscal year or either of the two previous fiscal years by the 
witness or by an entity represented by the witness.''
    Our committee rules don't go so far. Our committee rules 
say that when they appear, they provide a listing of any 
Federal Government grants and contracts received in the 
previous fiscal year. But this loyalty oath, almost, asserting 
that you have never received anything, says, ``I am 
representing I have not received any Federal grant or subgrant 
thereof, or contract or subcontract thereof, during the current 
fiscal year.''
    I don't think witnesses are required to sign this. You can 
give this to them if they want to sign it, but I think they 
might be misled into thinking they had to sign something like 
this. All they have to do is submit any grants or say that they 
know of no grants. I question the propriety of this kind of 
form, and I want that on the record.
    I don't want to take up time from the witnesses, but I 
think it's an issue that I want to highlight for further 
discussion as we all try to deal with this new rule requiring 
witnesses to make this disclosure.
    Mr. McIntosh. So noted. That's the current policy of the 
subcommittee, but we will look forward to working with the 
minority in developing procedures to implement that rule.
    Mr. Waxman. Current policy is a very strange notion. This 
is the first time we have implemented the policy. This is an 
attempt to implement the policy, and we want to talk further 
about whether this is the appropriate way to do it.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T1517.030
    
    [GRAPHIC] [TIFF OMITTED] T1517.031
    
    [GRAPHIC] [TIFF OMITTED] T1517.032
    
    Mr. McIntosh. Mr. Parris, if you would share with us your 
testimony, please.

STATEMENTS OF DON PARRIS, PRESIDENT, ENVIRONMENTAL REMEDIATION 
 CONSULTANTS, INC.; RICHARD CASTLE, PRESIDENT, CASTLE CONCEPTS 
CONSULTANTS; AND JOHN F. LYNCH, JR., SENIOR PARTNER, CARPENTER, 
                     BENNETT, AND MORRISSEY

    Mr. Parris. Mr. Chairman and members of the subcommittee, 
we appreciate the opportunity to appear before you today and to 
express our views on an EPA directive requiring extensive 
reform, the Superfund Act of 1980.
    Our companies are part of a consortium of environmental 
professionals with over 70 years of combined remediation 
expertise, small businessmen, each with their own expertise, 
networking to scientifically assess and implement natural, 
commonsense solutions to contamination problems. We are able to 
tap into the academic and commercial advances throughout the 
country, combining these with current remediation practice to 
offer site-specific initiatives never before attempted.
    Petroleum organics, solvents, chlorinated compounds, heavy 
metals, and even low-level radiation, all are being 
successfully remediated using innovative, cutting edge, 
biologically based protocols. We are indifferent to the band-
aid approaches of dig-and-haul, managed abatement, or capping, 
procedural throwbacks to the 1970's and 1980's that are still 
being championed by many large firms with their ``one size fits 
all'' mentality.
    The focal point of our innovative methodologies centers on 
in-situ bioremediation, the use of naturally occurring 
organisms to augment the metabolic removal of hydrocarbons from 
contaminated sites, and the only remediation technology 
recognized by EPA that does not create secondary liabilities.
    Our network has been successful in bridging the gap between 
R&D and the actual field application, to offer a proactive 
approach that is fast, effective, economical, and complete. We 
have found the typical period for minimally impacted soils to 
be 3 to 12 weeks, at a 25 to 30 percent cost savings over 
traditional technologies.
    Through the use of strain selection, population dominance, 
co-treatment amendments, and hydrological manipulation 
strategies, we are able to minimize and maintain increased cell 
viability, thus allowing for the simultaneous cleanup of both 
soils and ground waters, and eliminating the need for 
``operable units'' at a site. The site itself, in fact, is the 
operable unit.
    Despite these obvious advantages proffered by small 
innovative companies, we remain on the outside looking in. The 
large approved vendors, garnering close to 90 percent of the 
most lucrative Government contracts while accounting for only 
10 percent of the total remediation firms, are inflexible and 
have only one or two so-called ``technologies'' that they make 
fit particular situations, disregarding any site specificity.
    Since there are no time limits established for closure, the 
incentive to clean the impacted area is minimal. Administer and 
manage are the coveted cash cows of these vendors. Thirty- to 
fifty-year cleanups are common in the industry, but what is 
actually meant by ``clean''? Since the inception of the 
superfund, only 33 sites have actually been cleaned, and we are 
speaking of a technical closure now as opposed to a paper 
closure.
    Dig-and-haul rids the impacted area of the contaminant only 
to spawn the next generation of Superfund listings; namely, the 
landfills. Pump-and-treat was recently approved by a regulatory 
agency because they knew of no other technology that fit a 
specific site. The estimated time for that closure was 900 
years, and this was actually approved by that agency, with the 
caveat that, if something else came to light within that period 
of time, they might possibly use it.
    Another case in point substantiating the need for Superfund 
reform is the Havertown PCP site near Philadelphia, PA. It was 
formerly a wood treater facility that had PCP, creosote, 
arsenic, copper chromate, dioxin, and various other 
contaminants. The EPA held various town meetings to update the 
community on its efforts and to ask for alternatives to the 
record of decision, which was capping, due to citizen 
opposition.
    We visited the site and reviewed some of the available 
documentation. We found that there was no thorough site 
characterization; namely, no plume mapping, migration profiles, 
or hydrological studies. There was no current toxicological 
investigation.
    There were very lax meeting protocols filled with a lot of 
misinformation to the community, and there was constant 
posturing at these meetings that the cap remedy was not 
predestined and was merely an interim measure until a better 
technology could be developed. The apathetic citizenry of that 
area compared the entire project to a dairy farm that was about 
to be milked for the next 30 years.
    We felt we could help. We proposed to Havertown and the EPA 
the following: we were to hold meetings with the EPA and the 
community to explain our technology; we were to answer any 
questions or any challenges; and we were to do treatability 
studies, at our own expense, on soils and ground waters; we 
would undertake a full site characterization to define the 
sources, the zones of impact, and migration pathways; we would 
submit a revised corrective action plan to clean up the soils 
and the ground waters and all the adjacent properties; and we 
could reach closure, we felt, with the information that we had, 
within an 18- to 24-month period.
    On top of all this, we were going to guarantee this closure 
through performance bonding. No cleanup; no pay. EPA's response 
to our efforts was less than desirable but not unexpected. It 
ranged from our proposals being totally ignored--after all, 
they had never put a guarantee and a cleanup in the same 
sentence--through competency and nontechnical rebuttals of 
proven facts.
    Finally, the township was given the ultimatum to accept the 
cap or lose funding. Federal marshals enforced this order, and 
the site was topically sealed within 2 months. As a peace 
offering, nonpermanent buildings could be erected on the site 
or, in fact, it could even be turned into a playground.
    In summary, it is obvious to us that the EPA fell far short 
in their duties and responsibilities at Havertown. No. 1, in 
light of technical advances and dynamic site conditions, 
reevaluation is definitely warranted. The use of 1970's and 
1980's technology, the evaluation of bioremediation by a 
generic, nonspecific report with no regard to provable merit, 
source elimination, and the lack of mandatory hydrological and 
geological studies all support this finding.
    No. 2, EPA's remedial plan fails to consider permanent 
future use of the property and its concomitant tax base. They 
would have restrictive building codes and no underground 
utilities. Our methodologies actually clean the site up, to or 
below Federal and State standards, with no use limitations.
    No. 3, EPA would not consider or evaluate the economic 
advantages of our technology. With it, there would be no need 
to buy additional land, no need to construct roads, no need to 
cap, no need to build a $10-million treatment facility, no need 
to demolish buildings, and no need for an operating and 
overhead expense for the next 30 years.
    The total cost of the project would exceed, probably, $40 
million, and nothing will be cleaned, only managed. The source 
will continue to pollute the ground water, and, as we all know, 
soil cleanup using pump-and-treat just doesn't work.
    This is just one site among many and we are but one group 
among many. If the EPA is to live up to its mandate, as 
evidenced by the preceding scenario, clearly many changes are 
necessary. They must get in step with the new thinking and put 
the emphasis back on science. It is a sad note that cutting 
edge, innovative companies can totally remediate a site in one-
tenth the time it now takes to simply administer that site, 
saving countless lives, years of nonuse, and billions of tax 
dollars.
    We thank the committee for its efforts on behalf of the 
environment and for allowing us to participate.
    [The prepared statement of Mr. Parris and Mr. Castle 
follows:]
[GRAPHIC] [TIFF OMITTED] T1517.033

[GRAPHIC] [TIFF OMITTED] T1517.034

[GRAPHIC] [TIFF OMITTED] T1517.035

[GRAPHIC] [TIFF OMITTED] T1517.036

[GRAPHIC] [TIFF OMITTED] T1517.037

    Mr. McIntosh. Mr. Parris, I appreciate that testimony. What 
we will do is, we will hear from each of the panelists and then 
have a period of questioning from the committee.
    Our second witness on this panel is Mr. Lynch.
    Mr. Lynch.
    Mr. Lynch. Thank you, Mr. Chairman.
    Gentlemen, may I have your attention. I would like to 
address particularly, Mr. Waxman, some of your concerns. I will 
state at the outset that this is a personal statement. I am not 
here in a representative capacity. Your staff invited a party 
who had complained about the intractable delays and costs of 
this program, and that party suggested me as an alternate 
because I had experience with many more cases.
    Mr. Sanders. Mr. Lynch, could I just encourage you to bring 
the mic a little bit closer to your mouth, please.
    Mr. Lynch. Sure.
    Mr. Sanders. Thank you very much.
    Mr. Lynch. I first spoke to someone on your staff about 
this thing yesterday morning at 10 o'clock. I pulled an all-
nighter writing my testimony, but I do believe I'm coming in 
the idea that someone who has made a living at this for 12\1/2\ 
years may have something of value for the very important 
national debate that you folks are at the heart of.
    Mr. Waxman. Mr. Chairman, I don't want to take up his time, 
so maybe we can start it over.
    Mr. Lynch, let me make a couple of things clear. You never 
talked to anybody on my staff.
    Mr. Lynch. You or the committee, sir.
    Mr. Waxman. No, you never talked to anybody on my staff. 
You might have talked to the majority staff, but not to our 
staff.
    Mr. Lynch. I agree.
    Mr. Waxman. Second, the rules require that we have the 
testimony in advance so that we can review it and ask 
intelligent questions. I want people to see your testimony we 
received this morning; it's all handwritten.
    Mr. Lynch. I understand that, sir.
    Mr. Waxman. Now, I have no objection to your testifying. I 
want everybody to testify who has something relevant to say. 
And my beef is not with you; my beef is that we should have had 
this in advance, and the chairman didn't protect the Members.
    Mr. Barr. Mr. Chairman, I have a point of order, please. 
Could I inquire of the Chair if we can proceed under regular 
order and whether a point of order would lie to that effect 
now, so we can proceed.
    Mr. McIntosh. Let us proceed.
    Mr. Waxman. I would like to ask unanimous consent that the 
gentleman's time start now so he will get the full 5 minutes.
    Mr. McIntosh. We will do that.
    Mr. Lynch, go ahead. Proceed.
    Mr. Lynch. My apologies, sir, for the handwritten. It's the 
best I could do. I tried to get it typed, faxed to my office, 
typed back, and I did not know the handwritten was going to be 
handed to you. I would really request the honor to be able to 
put a proofread version in front of you sometime later.
    Mr. McIntosh. We will gladly accept that testimony. Mr. 
Lynch, let me just say, the committee is extremely pleased that 
you are able to be with us today, and we understand that, 
unlike the Government, the private sector doesn't have huge 
staffs to help them prepare these things months in advance and 
that you are taking time away from things you could be doing in 
your business in the private sector. So thank you for coming, 
and I appreciate the testimony you are giving.
    Mr. Lynch. Well, that's OK.
    My central idea is this, that you, a congressional 
committee, should be at the heart of this national debate, 
because you are involved with governmental operations affecting 
the national economy. I think what's wrong with this program is 
at that point. It's not in the details of administrative reform 
or the other things you are probably going to hear more about.
    I speak primarily to address the problems at multiparty 
sites. I don't have any brief to file with regard to what the 
Government wants to do to tell some guy to clean up his 
factory. I'm talking about the multiparty sites, the kinds of 
sites that are taking the administrative and litigation delay 
that you are talking about.
    The central point I want to make is that among all species 
of Government programs, Superfund--and I don't think this is 
widely recognized--is an entirely new animal. It looks like 
some others, and parts of it can be recognized by comparison to 
other species, so it's more like a mutation than an alien, but 
this is fundamentally a new animal, and I don't think people 
understand that.
    What I'm saying is that the main problem with this program 
is not the way it's dealt with in the field, though certainly 
there are those kinds of problems. In the main, EPA employees 
are certainly not stupid, ignorant, or evil. The companies that 
respond to these cases are not rogues, insensitive to the 
national will. All these folks are simply reacting to try to 
deal rationally with something foreign to their experience and 
the national governmental traditions.
    Let me illustrate how different this program is, showing 
how, in some ways, these factors of it can be recognized in 
other statutes but together they represent mutations of a 
governmental program which have produced a nonworking program.
    First of all, most environmental statutes--RCRA, Clean Air, 
Clean Water, NEPA--tell this generation how to deal with its 
hazardous substances today. Those programs tell us how to 
allocate resources to produce products today and fulfill 
national environmental policies at the same time. In contrast, 
Superfund asks this generation to use its assets to pay for the 
sins of the past, and sometimes to pay for the good actions of 
the past.
    Second, most significant allocations of resources in our 
society are done by market forces--Adam Smith's invisible 
hand--or by legislative decisions by Congressmen such as you, 
hammered out against the background of demands of competing 
programs and their fiscal constraints, while you guys try to 
reach, if not a balanced budget, at least a responsible one. In 
contrast, Superfund does not give bureaucrats money to spend; 
it gives them power to spend other people's money off budget.
    Third, most governmental programs which operate by giving 
power, check that power by making it subject to judicial review 
before it matures into any order that must be obeyed. In 
contrast, Superfund falls within an exception to the general 
principle of prior judicial review carved out for health-
related cases in the U.S. Supreme Court case of ex parte Young.
    Fourth, most governmental programs that come within the ex 
parte Young exception are intrinsically limited in the amount 
of the generation's wealth they relate to. The quarantine of a 
ship in a harbor may be seriously bothersome to the cargo and 
shipping companies, but their capitalization and risk 
management decisions probably localize even that effect, and 
the national economy is not affected.
    In contrast, there is nothing under Superfund--absolutely 
nothing--that prevents a single bureaucrat from ordering the 
entire gross domestic product to be devoted to cleaning up a 
single site. Now, that sounds silly. Perhaps it's really not 
going to ever happen--although, when I look out my window at a 
sediment case involving the Passaic River, I sometimes wonder--
but the point I do want to make is that bureaucrats performing 
what they perceive to be their obligations under this statute 
can order just about any amount of this generation's fisc and 
can do it without a whole lot of cost considerations, cost 
benefit constraints of the consequences.
    I will skip a point, just because of the time constraints, 
dealing with the fact that there is a delinkage between the 
traditional legal concepts in our society of cause--you have to 
cause a problem before you have to remedy it. Here, the 
dilution of the concepts of joint and several liability are so 
extreme that parties get dragged into cases with the smallest 
scintilla and are threatened with the ruinous consequences of 
the total dollar consequence of the entire site, and those 
consequences are not reasonably related to any kind of result.
    The problems are compounded by efforts to do promptly that 
which ought not to be done in the first place, to do it by 
employing gross diseconomies of Government contracting 
processes, and to do it occasionally to serve the interests of 
the preservation of Government jobs. But as applied to 
multiparty sites, Superfund is a program made to make this 
generation pay for the cures of the ills of the past.
    As such, in my opinion, it should be based on a 
congressional determination of how much we can afford, in this 
generation, to address those prior ills. How many bucks can we 
spend? We can't spend it all to clean dumps. Somebody has to 
grow the food to feed the people that clean them. Once that 
amount is determined, there ought to be a program implemented 
that holds people in Government responsible to get the most 
environmental bang for those bucks.
    Instead, Congress has granted unprecedented power and tries 
to hold people responsible for how many cases they have closed 
and how fast they have closed them. This program has become yet 
another example, in our computer age, of the perversion of 
qualitative values into quantitative gymnastics. Protecting the 
health of ourselves, our children, and our planet has, under 
Superfund, become an exercise in counting beans.
    Now, those are my conclusions, as I say, after 12\1/2\ 
years of dealing with this. If you want the details, anecdotal 
examples of any of these things, I will be glad to provide 
them.
    [The prepared statement of Mr. Lynch follows:]
    [GRAPHIC] [TIFF OMITTED] T1517.038
    
    [GRAPHIC] [TIFF OMITTED] T1517.039
    
    [GRAPHIC] [TIFF OMITTED] T1517.040
    
    [GRAPHIC] [TIFF OMITTED] T1517.041
    
    [GRAPHIC] [TIFF OMITTED] T1517.042
    
    [GRAPHIC] [TIFF OMITTED] T1517.043
    
    [GRAPHIC] [TIFF OMITTED] T1517.044
    
    [GRAPHIC] [TIFF OMITTED] T1517.045
    
    [GRAPHIC] [TIFF OMITTED] T1517.046
    
    [GRAPHIC] [TIFF OMITTED] T1517.047
    
    [GRAPHIC] [TIFF OMITTED] T1517.048
    
    [GRAPHIC] [TIFF OMITTED] T1517.049
    
    [GRAPHIC] [TIFF OMITTED] T1517.050
    
    [GRAPHIC] [TIFF OMITTED] T1517.051
    
    [GRAPHIC] [TIFF OMITTED] T1517.052
    
    [GRAPHIC] [TIFF OMITTED] T1517.053
    
    [GRAPHIC] [TIFF OMITTED] T1517.054
    
    [GRAPHIC] [TIFF OMITTED] T1517.055
    
    [GRAPHIC] [TIFF OMITTED] T1517.056
    
    [GRAPHIC] [TIFF OMITTED] T1517.057
    
    [GRAPHIC] [TIFF OMITTED] T1517.058
    
    [GRAPHIC] [TIFF OMITTED] T1517.059
    
    [GRAPHIC] [TIFF OMITTED] T1517.060
    
    [GRAPHIC] [TIFF OMITTED] T1517.061
    
    [GRAPHIC] [TIFF OMITTED] T1517.062
    
    [GRAPHIC] [TIFF OMITTED] T1517.063
    
    [GRAPHIC] [TIFF OMITTED] T1517.064
    
    [GRAPHIC] [TIFF OMITTED] T1517.065
    
    [GRAPHIC] [TIFF OMITTED] T1517.066
    
    [GRAPHIC] [TIFF OMITTED] T1517.067
    
    [GRAPHIC] [TIFF OMITTED] T1517.068
    
    [GRAPHIC] [TIFF OMITTED] T1517.069
    
    [GRAPHIC] [TIFF OMITTED] T1517.070
    
    [GRAPHIC] [TIFF OMITTED] T1517.071
    
    [GRAPHIC] [TIFF OMITTED] T1517.072
    
    [GRAPHIC] [TIFF OMITTED] T1517.073
    
    [GRAPHIC] [TIFF OMITTED] T1517.074
    
    Mr. McIntosh. Thank you, Mr. Lynch.
    Mr. Castle, the staff informs me that Mr. Parris had 
presented testimony for both of you, but do you want to add any 
additional comments at this stage of the hearing?
    Mr. Castle. Actually, my mission is just to answer 
questions, if there are questions. Being part of the consortium 
that Don was speaking of, we're sort of on a joint venture here 
into answering any questions as witnesses to the subcommittee. 
I don't have a prepared speech.
    Mr. McIntosh. Thank you for coming today.
    Let's turn now to questions from the committee. Let me 
direct the attention of all of the witnesses to the charts 
there on the left. These are from the draft study that GAO will 
be talking to us about in the next panel. What they indicate 
are how long it takes to place a site on a Superfund National 
Priority List and how long it takes to complete the cleanup 
after they have been placed on that list.
    As you can see, the slope of those lines indicates that 
there's a steadily increasing amount of time since 1986, for 
both of those decisions and actions to be taken. Back in 1986, 
when Congress reauthorized the program, it took about 4 years 
to place a site on the Superfund list and then about 2\1/2\, 
maybe 3 years in order to clean it up. Today, in 1996, it takes 
a little less than 10 years to place it on the list and perhaps 
over 10 years to actually clean it up, making the total time 
over 20 years.
    In your experience, what would you recommend that we make 
for changes that would try to, perhaps in an ideal world, 
return the timeframe back to where it was in 1986, but at least 
make some dramatic changes. I think we can recognize that, in 
the last year or so, the time it takes to place a Superfund 
site on the National Priority List has started to come down, 
but, unfortunately, the cleanup time has continued to increase.
    Any recommended changes that you would have us recommend to 
EPA in this, or pass as a statutory change, in order to 
dramatically decrease the time for both of those decisions?
    Mr. Parris. On the average time it takes to clean up the 
Superfund sites, I think the initiative that the EPA is 
starting to undertake, the assessment based on presumptive 
remedies, I think this is a good initiative to undertake if, in 
fact, it is done correctly and the correct presumptive remedies 
are, in turn, looked at.
    And I think, as I stated, we've got to get more science-
based initiatives, as opposed to engineering or physical 
removals of materials on sites. There's a lot of cutting edge 
science out there, not just what we talked about today. There 
are a lot of people looking at this problem, and a large 
quantity of them are small businessmen such as ourselves. These 
fellows need to be heard, and they need to have access to EPA 
as do the large vendors. They need to cut through the red tape, 
and they need to get to the people that they have to get to.
    Mr. McIntosh. Let me pursue that, in particular, in the 
example you cited where you wanted to use bioremediation to 
actually clean up a site. Did EPA give any reasons for not even 
considering your proposal? I mean, was it just kind of a black 
hole, or did they give you some response?
    Mr. Parris. Basically, none. We bantered back and forth a 
little bit, and talked about the reasons we could not or could, 
in fact, apply that remediation to this site. By the way, 
bioremediation is a presumptive remedy for wood treater sites; 
not the only remedy, but it is one of the ones that is 
considered foremost.
    Mr. McIntosh. So, under EPA's own standard, what you were 
proposing fit into their presumptive remedies under their 
reforms?
    Mr. Parris. That is correct.
    Mr. McIntosh. But they wouldn't even consider that proposal 
for that site?
    Mr. Parris. No, sir.
    Mr. McIntosh. To the best of your knowledge, they didn't 
provide any rationale for making that decision.
    Mr. Parris. They provided none.
    Mr. McIntosh. I must say that bioremediation, as you 
described it, does seem to have a great deal of promise, 
particularly because we would actually remove the toxic 
substances from the site and not have to create another 
wastesite somewhere else. I applaud you for promoting that as 
an effort, because I think ideas like that will let us actually 
do a lot better job of cleaning up the environment.
    Mr. Parris. Yes. And I might add, too, since it is done in 
place, we're not talking about two different cleanup entities 
here. When ground water is, in fact, involved, it is cleaned up 
simultaneously with the soil. It's a total package-type 
concept, and we don't segregate it into, again, operable units 
or anything. We go in, we assess the site, and we treat what we 
see on a site-specific basis.
    Mr. McIntosh. You were willing to test this at your own 
expense at that site?
    Mr. Parris. That is correct.
    Mr. McIntosh. So they wouldn't even allow you on the site 
to do that, at really no expense to the Government or any of 
the parties?
    Mr. Parris. No, sir.
    Mr. McIntosh. A real quick question, Mr. Lynch, and maybe 
we will give you time and some of my colleagues to answer this 
in more detail, but if you could be thinking of some particular 
examples in making your points, which I found very telling in 
terms of the problems with litigation and the power of the 
bureaucratic imperative.
    You have worked a lot in New Jersey, in that State?
    Mr. Lynch. Yes, sir.
    Mr. McIntosh. Are there some particular sites there that 
have been delayed as a result of those problems you raised?
    Mr. Lynch. There have been lots of delays in the cases that 
we deal with involving people fighting over issues that, 
unfortunately, they have to fight over under the structure of 
the statute; yes. In landfill cases where we are trying to 
remediate--the State threw a lot of landfills on the list at 
the outset--basically underlying decisions to throw municipal 
garbage into the ground water of what previously was a swamp or 
a sand pit.
    People realized that they are being asked, if they have one 
drum of dimethyl nasty, as an industry, to clean up what is 
essentially a public health problem resulting from an 
improvident siting of a dump, and they fight it. They try to 
bring as many other parties in as they can.
    In the lead sites, where a responsible manufacturer may 
have been recycling its scrap lead to be cast back in ingots 
and brought back on the site, they are getting sued for joint 
and several liability because thousands of gas stations sent 
their used auto batteries to this place where they run over 
them with bulldozers, pick out the parts, and sweep everything 
off to the side.
    You wind up with lead in the ground, but the joint and 
several liability means the guy that just had sent product to 
get smelted and come back had a molecule go out of the stack, 
undoubtedly, somewhere along the way, and he's jointly and 
severally liable for the whole bunch. And the gas stations are 
saying, ``You can't mean me,'' and the operator is out of 
business. That's the kind of site we have there.
    There's currently ongoing a site for the 6 miles of the 
Passaic River. You know, Newark was founded in 1666. This is a 
330-year-old industrial sewer, basically, and somebody is after 
one company to do a study that's costing over $30 million, to 
find out what's going on in the sediment, in the hope of 
possibly picking them up, putting them in drums at $500 a drum, 
to the depth of 10 feet, 100 feet wide and 6 miles long, and 
shipping it off to Emile, AL.
    That company is running around trying to beat up on every 
other company that had anything within 100 miles--well, 10 
miles anyhow--to say, ``You might have had one scintilla of 
stuff; therefore, you are joint and severally liable. Join me 
as we face this hundreds of millions of dollars of liability.'' 
And people are saying, ``Not me,'' fighting it back and forth. 
You know, it's providing a living for me--thank you very much--
my kids are already through college. But as a matter of public 
policy, it's crazy.
    Mr. McIntosh. You're not able to get any actual cleanup 
done during all of that time.
    Mr. Lynch. We're getting some sites done. We just finished 
a deal on the second phase of the Gems landfill where I'm 
common counsel. The first phase was $32.5 million. We brought 
it in on time and under budget. We're now addressing the ground 
water. We got the $30 million raised, and the trust is formed 
to go deal with it, and the consent decree is out for public 
comment.
    We've got a lot of companies that are putting their 
shoulders to the wheel and willing to do it. A lot of them are 
saying, ``I'm being dragooned. I'm facing Federal court for 
years and years and years, and they won't let me out, and I 
really am a little part of it.'' And frankly, they get their 
arms twisted, and they throw in $100,000 and, you know, you 
start building a $30-million pot of such inconveniences. That's 
part of the reality.
    But there is progress being made. I'm not saying that. I 
think your question about how do we speed this thing up, 
respectfully, if you were the board of directors of an aircraft 
company that made planes that were unsafe, that were delivered 
late, that cost too much, and you aggravated the customers all 
along, you wouldn't be sitting here saying, ``How can I deliver 
them faster?''
    You know, you're focusing on the wrong thing. The problem 
is structurally with the program. The agency, I believe--I've 
met an awful lot of very fine, intelligent people in that 
agency, and they are trying to do what they are told. To judge 
them by how fast they are counting beans instead of how many 
lives and how much of the environment they are protecting for 
the dollars available is really the wrong way to go.
    Mr. McIntosh. So you are urging fundamental changes in the 
program.
    Mr. Lynch. Yes, sir. This generation ought to decide how 
much of its gross domestic product it can devote to what was 
disposed of before manifests were available in 1978 and go 
spend it and get bang for the buck. Right now we're creating 
something, designating it a site, pushing it through the 
system, and wondering how long we can do it. We're grading 
these people on sites, not lives. That's stupid.
    Mr. McIntosh. Thank you.
    Mr. Sanders, do you have questions for this panel?
    Mr. Sanders. I do, just a few. Thank you very much, Mr. 
Chairman.
    First of all, I want to thank all of you for coming. As you 
know, the concern that we had is not hearing from experts, but 
from people who are in the trenches. We appreciate it. The only 
concern that we had is, we received your testimony very, very 
late, and really didn't have a chance to--and that's not your 
fault at all. We understand that.
    The other point that I would simply make--and perhaps you 
would agree with me--there are some charts over there. Some of 
us have a problem with the methodology regarding that report. I 
don't think any of you are experts in GAO methodology or in 
tracing how fast or not fast the Superfund has been cleaned up 
in the last 15 or 20 years. You don't have any expertise in 
that, do you? You are businessmen who are involved in cleaning 
up Superfund, so you really don't have much expertise in what 
you have been asked.
    Mr. Parris, I very much appreciate the thoughts that you 
shared with us and can appreciate your frustrations. I was a 
mayor of a city for 8 years. Dennis Kucinich is not here. He 
was mayor of Cleveland for a while. I think you would also 
agree that, on a particular case, you went in with a proposal; 
you feel you were not treated appropriately by the EPA. You 
would undoubtedly agree, would you not, that there may be 
another side to the story? Maybe you're right; maybe you're 
not. But there are two sides to every story; is that correct?
    Mr. Parris. That's correct.
    Mr. Sanders. And the problem that we all have, none of us 
really have detailed information. I was a mayor. My God, how 
long it took; right? We have to read the reports, and we hear 
both sides, and we have to make difficult decisions. So you 
have come to us with a concern; maybe you're right. I'm not 
here to say that you're not. Maybe you're not right. I don't 
know.
    Mr. Lynch, I appreciate your thoughts. I think you made 
some very good points, but I did not hear you say that in 
recent years the situation has deteriorated, that it was really 
good during the 1980's, but in the last 3 or 4 years, since 
President Clinton has come in, there has been a rapid 
deterioration in progress. All of these concerns are new, never 
been seen before. You didn't say that, did you?
    Mr. Lynch. First of all, sir, I haven't voted for a 
Republican since Goldwater. OK? So my inclinations are to your 
side of the fence. Frankly, the people I deal with at the EPA 
are the same. The fellow that just recently was promoted to 
regional counsel, I've been dealing with him since 1984. The 
Government doesn't have a finer lawyer. I have not seen policy 
changes really affect things in the trenches, for good or ill. 
People are just trying to get their job done. They have some 
pretty intelligent, creative people.
    Mr. Sanders. I would just say that I think--not for me to 
apologize--I think you haven't been treated quite the way you 
should have been. We need your expertise, because you're out 
there doing the work, and we often don't hear that. So I 
appreciate your being here, and thank you very much.
    That would be my remarks, Mr. Chairman.
    Mr. McIntosh. Thank you, Mr. Sanders.
    Let me turn now to the vice chairman of the subcommittee, 
Mr. Sununu.
    Mr. Sununu. Thank you very much, Mr. Chairman, and thank 
you gentlemen very much for your patience today and your very 
substantive testimony.
    I believe you were here this morning to hear Congressman 
Pallone speak, and certainly I have a great deal of shared 
sense of concern. As he stated, nine Superfund sites in his 
district. Coming from the First District of New Hampshire, I'm 
sorry to say I have 14 Superfund sites in my district. I will 
also agree with him that we have had some degree of success. 
The State agencies in our State have worked extremely hard, 
hand in hand, in some cases, with the EPA to make as much 
progress as is possible.
    But I think the underlying point that we need to stress in 
these hearings today isn't a discussion about whether or not 
some success has been achieved, or a congratulation that 
technology may be improving and may hold some promise, the fact 
is, it takes a tremendous amount of time to clean up these 
sites. It has since the inception of the Superfund program. It 
takes far more time to clean up these sites, I think, than most 
people in the public realize.
    Equally important, there is great concern and a good deal 
of evidence that the amount of time to clean up a given site, 
many would agree, is increasing. I think most would agree it 
certainly isn't decreasing. And that's what we ought to concern 
ourselves with is what's happened to the process here and, more 
importantly, are there ways to improve the process. I think 
we've heard discussion today of improvements that might be made 
on the technological side, improvements that might be made on 
the legal side, and certainly I hope that, as a committee, we 
can pursue these.
    I would like to address a few questions to Mr. Parris. 
First, give us a feel for your organization. How many companies 
are we talking about in your consortium that are dealing with 
these more forward-thinking technologies? How many 
professionals are we talking about? Give us a sense of where 
they are located and to what extent they have been able to get 
themselves involved in some, if any, of the existing NPL-listed 
sites.
    Mr. Parris. Basically, we have approximately 20 people in 
the consortium at this time, and they range from New York State 
down through Georgia, the Carolinas, Florida, and as far west 
as Ohio, Indiana--pretty much on the East Coast. Basically, we 
are brought together via the computer, Interneting, working 
with new ideas, putting things on the Internet, buzzwords that 
would attract people and different types of technologies to 
respond.
    We've gotten people that have gotten into the 
phytoremediation, the use of plants to sequester heavy metals 
and this sort of thing. Biomats; we have some gentlemen that 
are very into that. But, again, our main focus--we can do the 
pump-and-treat systems, we can do the dig-and-haul, if that's 
required--but I think, right now and with the expertise that we 
have with these people, it's just outdated, old technology that 
we just don't want to deal with, and we have a much better way 
to do it.
    We don't, again, look at operable units. We can clean a 
site of all the contaminants as a single unit, and we can do it 
very proficiently. We look at co-treatments, for example. Mr. 
Castle is an expert in polymer chemistry. And we've developed a 
lot of co-treatments that were not available several years ago.
    Everything that we do, co-treatments, different types of 
hydro-logical manipulation, anything that we can do to increase 
the viability of the cells to cause this type of remediation to 
go on--after all, we've got to give an environment for the 
organisms to work, and this is something that was overlooked in 
the past.
    In this consortium, these people that are involved, the 
polymer chemists, the chemists, the biochemists, the 
microbiologists, we're all looking at ways to improve the 
plight of the organism in the ground. We're looking to increase 
viability. We're looking to increase cell counts, and 
ultimately to reduce the time that it takes to clean up these 
sites.
    Mr. Sununu. What percentage of the NPL sites that are out 
there do you think would be suitable candidates for the 
bioremediation techniques?
    Mr. Parris. I would estimate in excess of 90 percent.
    Mr. Sununu. Primarily those that are petroleum-related?
    Mr. Parris. Right. Now we're starting to get into 
chlorinated solvents. We're doing very extensive work on 
chlorinated solvents, which a few years ago were not even 
considered to be bioremediable.
    Mr. Sununu. Are there any other sites out there or how many 
sites out there that you are aware of that are at least 
experimenting or allowing some sort of limited usage of 
bioremediation to take place?
    Mr. Parris. That would be hard to say. There are sites. As 
I indicated, the presumptive remedy for wood treater sites is, 
in fact, bioremediation, and there have been quite a few sites 
that have been cleaned up partially using that technology.
    Here again, bioremediation comes in a lot of different 
flavors, and it's dependent on the type of technology that you 
have, the people that are administering it, and the 
professionals that know how to increase the productivity of the 
cells. It's not just a simple augmentation with carbohydrates, 
and this sort of thing, in the soils. It's actually increasing 
the population of specific strains of organisms in the ground 
that can metabolize the various organics, get those high enough 
so that they outcompete the other organisms and focus directly 
on the contaminant.
    Mr. Sununu. Thank you very much.
    Mr. McIntosh. Thank you, Mr. Sununu.
    Let me check to see if there are any other questions for 
this panel.
    Mr. Waxman. Mr. Chairman, I don't want to ask any questions 
of this panel, but I want to thank them for their 
presentations. If they wouldn't mind, when I get a chance to 
review their testimony, I might ask them to submit some 
responses in writing so we can have it for the record.
    Mr. McIntosh. And we will keep the record open in order to 
do that.
    Let me just say, I do appreciate your coming and your 
testimony, and I think a couple key points have come out of it. 
One is that some of the reforms that were, in fact, put into 
place need to be more fully utilized out in the field.
    And, Mr. Parris, you've got bioremediation as one example 
of that.
    I think your point, Mr. Lynch, that when you've got a bad 
system, good people can't do a good job, and that they are not 
personally responsible for that; they are trying to do their 
best, but the system itself leads to results that none of us 
want.
    So I do appreciate all of you coming and testifying today 
and helping us build this record. It is my fondest hope that we 
can see some reform in this area in this Congress, in a 
bipartisan fashion. We got close last time, and I think we've 
got a chance this time.
    Mr. Lynch. May I respectfully sensitize you to one thing 
raised in the comments about Mr. Pallone's testimony. And I ask 
you, in testing these data, to keep this point in mind, because 
I think you will find it helpful. Three of the sites that Mr. 
Pallone cited were EPA emergency response or quick remedial 
action. I'm not talking about what--that's probably a pretty 
good program.
    The Kenbuck site was essentially a single party, the owner, 
SCP, now Waste Management--they claim they are only an operator 
or only a transporter--it was a single-party cleanup site, and 
that's not a part of the program that's having the problem.
    When you see data like this and you have those kinds of 
things mixed in, you ought to be sensitive to the fact that 
most of the grievances come from what are called multiparty 
sites. Somebody sent a little bit of waste somewhere with a 
bunch of other people. That's a discrete universe that is mixed 
in there. Unless you are sensitive to that, you're going to 
miss a lot of what really you're going to have to deal with.
    Mr. McIntosh. Let me make sure I'm following you. The 
problems are much greater in the multiparty sites than in the 
single party?
    Mr. Lynch. By orders of magnitude. The potential for 
governmental abuses, in terms of overbearing on the poor guy 
that gets caught, are much greater.
    Mr. McIntosh. That's very helpful.
    Thank you all. We appreciate your coming.
    Let us move now to our second panel: Mr. Peter Guerrero, 
who is the Director of Environmental Protection Issues; Mr. 
Stanley Czerwinski, Associate Director; Mr. Jim Donaghy, who is 
Assistant Director; and Mr. Mitchell Karpman, who is a 
statistician, all from GAO; and then Mr. Elliot Laws, who is 
the Assistant Administrator for Solid Waste and Emergency 
Response.
    Mr. Laws, thank you for coming today. I understand it's 
your last day of service in that position. I congratulate you 
on serving the public and appreciate your coming before us.
    It is my understanding that Mr. Waxman and Mr. Sanders 
would like us to implement the new rule that we have of 
allowing each side to have 30 minutes uninterrupted to question 
the panel as a whole.
    Mr. Waxman. Mr. Chairman, I know that we're going to have 
some more extensive questions. Maybe we can just allow a little 
bit more leeway on the timing to pursue those questions. I 
don't know if we need to be rigid in saying a half hour each 
side. However you want to conduct it.
    Mr. McIntosh. A little extra time for the entire panel 
after they have presented.
    Mr. Waxman. Yes. Let them present their testimony, and then 
if the chairman would be indulgent with the Members to some 
extent. I know I probably would take 10 minutes rather than 5 
minutes. So maybe we can just handle it on an informal basis.
    Mr. McIntosh. If no one objects, I am very happy to do 
that.
    OK. If all of the witnesses would please rise and repeat 
after me.
    [Witnesses sworn.]
    Mr. McIntosh. Thank you very much. Let the record show that 
each of the witnesses answered in the affirmative.
    Let me now turn to Mr. Peter Guerrero. If you could please 
summarize for us the findings of your draft report and any 
other remarks that you would like to make.

     STATEMENTS OF PETER GUERRERO, DIRECTOR, ENVIRONMENTAL 
     PROTECTION ISSUES, RESOURCES, COMMUNITY AND ECONOMIC 
DEVELOPMENT DIVISION, GENERAL ACCOUNTING OFFICE, ACCOMPANIED BY 
STANLEY CZERWINSKI, ASSOCIATE DIRECTOR; JIM DONAGAHY, ASSISTANT 
  DIRECTOR; MITCHELL KARPMAN, MATHEMATICAL STATISTICIAN; AND 
   ELLIOT LAWS, ASSISTANT ADMINISTRATOR FOR SOLID WASTE AND 
                       EMERGENCY RESPONSE

    Mr. Guerrero. Thank you, Mr. Chairman.
    We are pleased to present the results of our examination of 
the times to complete the evaluation and cleanup of Superfund 
sites. This work was done at the request of the chairman of the 
House Government Reform and Oversight Committee, and we plan to 
issue a report on our findings to the committee next month.
    We divided the Superfund process into two major segments: 
first, the evaluation phase that occurs from the time a site is 
discovered to when it is finally placed on the Superfund 
cleanup list; and second, the cleanup phase that occurs after 
listing, during which more site studies are done and cleanup 
remedies are selected, designed, and constructed. Each of these 
phases are represented in the charts to your left.
    First, I would like to discuss the earlier of these phases, 
from the time of discovery to listing. As the chart 
illustrates--and that's the closest one to you--the sites that 
were listed in 1996 were discovered an average of 9.4 years 
earlier. While this is an improvement over 1995, it is longer 
than earlier listing times.
    SARA requires EPA to evaluate sites for listing within 4 
years of discovery. However, the percentage of sites for which 
EPA has made listing decisions within 4 years of discovery has 
decreased in each succeeding year, from 51 percent in 1987 to 
36 percent in 1991, the last year for which it is possible to 
measure these percentages.
    There are a number of reasons why the time from discovery 
to listing has increased over the years. A major factor was 
that the Superfund program started with a backlog of sites 
awaiting evaluation, so not all sites could be processed at 
once. Other factors include revisions to eligibility standards 
that require the re-evaluation of many sites, the need to seek 
State concurrence for listing, and reductions in the annual 
number of sites that EPA added to Superfund in more recent 
years.
    This last factor will have a profound influence on listing 
times in the future. In recent years, EPA has concentrated on 
cleaning up sites that have already been listed. As a result, 
EPA has recently added an average of only 16 sites per year to 
the National Priorities List for cleanup. Yet somewhere between 
1,400 and 2,300 more sites could potentially be added in the 
future.
    I would now like to turn to the time it takes to complete 
cleanups after sites are added to the Superfund list, the time 
period represented by the next chart, the chart in the middle. 
As you can see, cleanup projects were completed in fiscal year 
1996 onsites that had been placed on the Superfund list on an 
average of 10.6 years earlier.
    As with listing, cleanup completion times have also 
increased over the history of the program. EPA set a goal in 
1993 to complete cleanup within 5 years of a site's listing, 
using this as a reasonable benchmark for the program. We found 
that the percentage of cleanups within 5 years of listing has 
increased from 7 percent for sites listed in 1986 to 15 percent 
of sites listed in 1990.
    Overall, EPA has completed construction of cleanup remedies 
at over 418 Superfund sites, and construction is underway at 
another 491 sites. The increase in cleanup times was 
accompanied by a marked increase in the time taken to select 
cleanup remedies or the study phase of the cleanup process, and 
a time, also, during which attempts are made to reach 
settlements with parties responsible for contamination of 
sites.
    This study phase was completed in about 2\1/2\ years after 
listing in 1986, but took about 8 years after listing in 1996. 
EPA officials attributed this increase and the increase in 
listing times to the growing complexity of sites, efforts to 
reach settlements with parties responsible for contamination, 
and resource constraints.
    In conclusion, Mr. Chairman, I would like to make a number 
of points. First, average times to cleanup and list sites have 
increased over the history of the program. Increasing cleanup 
times are a concern because of the large number of sites that 
could be listed in the future, as well as the amount currently 
in the cleanup pipeline today.
    As the third chart shows, while EPA has made progress at 
many sites, completing the construction of remedies at over 400 
sites, construction work does still remain to be completed at 
up to 800 more. In addition, from 1,400 to 2,300 sites could be 
added to Superfund in the future.
    Second, EPA has a number of reform initiatives underway to 
reduce timeframes and costs, but evidence that they are 
accomplishing this is largely anecdotal. Our analysis, while 
showing the progress of the program and the trends associated 
with the time required for key segments of the Superfund 
process, does not allow us to assess whether these reform 
initiatives are having the intended effect of lowering program 
timeframes and costs.
    I should add that showing these effects is difficult, since 
these reforms were largely put into place in 1994, or more 
recently and, by EPA's own admission, could take up to a decade 
to show results.
    Finally, measuring the results of a program as complicated 
as Superfund is a challenging task at best. The approaches we 
have used have the advantage of showing both how long it has 
taken to complete Superfund actions as well as whether 
Superfund's legislative and program goals are being met. They 
also highlight the growing times being spent deciding what to 
do with sites in comparison to the relatively short times 
actually spent cleaning them up.
    This concludes my statement. As you know, we will be 
working with the committee and others to support the Congress 
as it works to reauthorize Superfund. I will be happy to answer 
your questions.
    [The prepared statement of Mr. Guerrero follows:]
    [GRAPHIC] [TIFF OMITTED] T1517.075
    
    [GRAPHIC] [TIFF OMITTED] T1517.076
    
    [GRAPHIC] [TIFF OMITTED] T1517.077
    
    [GRAPHIC] [TIFF OMITTED] T1517.078
    
    [GRAPHIC] [TIFF OMITTED] T1517.079
    
    [GRAPHIC] [TIFF OMITTED] T1517.080
    
    [GRAPHIC] [TIFF OMITTED] T1517.081
    
    [GRAPHIC] [TIFF OMITTED] T1517.082
    
    [GRAPHIC] [TIFF OMITTED] T1517.083
    
    [GRAPHIC] [TIFF OMITTED] T1517.084
    
    [GRAPHIC] [TIFF OMITTED] T1517.085
    
    [GRAPHIC] [TIFF OMITTED] T1517.086
    
    [GRAPHIC] [TIFF OMITTED] T1517.087
    
    Mr. McIntosh. Thank you very much, Mr. Guerrero.
    Let me turn now to Mr. Laws. If you could share with us 
your testimony. Thank you.
    Mr. Laws. Good morning, Mr. Chairman. Thank you very much. 
I have a written statement for the record.
    I am pleased to appear here today to discuss the current 
status of the Superfund program, focusing on the 
accomplishments of our administrative reforms. Mr. Chairman, as 
you know, the agency has a policy that its representatives not 
testify on draft reports. Therefore, I will not be able to 
comment today on GAO's draft report and testimony, nor will I 
be able to answer questions concerning the draft report and 
testimony.
    I will be happy to answer questions about the current 
status of the Superfund program, and once the GAO report is 
completed and the administration has had an opportunity to 
review it, an agency representative will be pleased to testify 
before the subcommittee about the report.
    Today, the Superfund program is hard at work cleaning up 
toxic wastesites and protecting human health and the 
environment. Unfortunately, the current success of the program 
is seldom accurately characterized. In the past few weeks, 
several public statements were made that only 30 Superfund 
sites have been cleaned up. Statements like that are so 
patently false that I would like to take this opportunity to 
set the record straight.
    Mr. Chairman, today 418 Superfund sites have been cleaned 
up. More than 480 additional Superfund sites have cleanup 
construction underway. In other words, 70 percent of all 
Superfund sites are either cleaned up or under cleanup 
construction. Today, EPA is protecting thousands of families 
along the Gulf Coast of the United States by cleaning up homes 
and small businesses poisoned by the misapplication of the 
pesticide methyl parathion.
    This is just one of the sites that the Superfund program 
has addressed, immediate threats to human health and the 
environment. We have performed over 4,000 of these emergency 
cleanup actions.
    The current success of the Superfund program can, in part, 
be attributed to the administrative reforms undertaken by EPA 
and the Clinton administration. Three rounds of administrative 
reforms and selected Federal facility reforms were developed to 
increase the pace of cleanup and ensure the selection of 
commonsense, protective cleanups, and increase the fairness of 
the liability system, while reducing litigation and transaction 
costs.
    These reforms are working. In a report issued in December 
1996, the Superfund Settlements Project acknowledged the 
agency's substantial track record since the agency began 
implementing the administrative reforms. I believe others have 
made reference to that report, as well. This is a private 
analysis of just a sample of our administrative reforms, and it 
supports the findings of our Superfund Administrative Reforms 
Annual Report for fiscal year 1996.
    Our administrative reforms were based on a fundamental set 
of principles. EPA set out to increase the pace of cleanups, 
lower the cost of cleanup, while maintaining long-term 
protection of human health and the environment, and promote 
fairness in the Superfund liability system, while reducing 
litigation and transaction costs. We sought to involve States 
and communities in Superfund decisionmaking, and promote the 
economic redevelopment of Superfund and brownfields sites.
    As I mentioned, pace of cleanup is one of the program areas 
that EPA administrative reforms have focused on. Historically, 
the pace of Superfund cleanups has been affected by many 
factors. In the early years of the program, there was a 
tremendous agency learning curve on how best to cleanup 
Superfund sites. Congressional review of site-specific listing 
and remedy decisions and lapses in program funding have also 
affected the pace of cleanup.
    I will briefly discuss some of the administrative reforms, 
and a more detailed summary of them appears in my written 
testimony. To increase the pace of cleanup, EPA is using more 
standardized or presumptive remedies. These remedies are based 
upon the scientific and engineering experience which we have 
gained from hundreds of cleanups performed or overseen by the 
agency. Presumptive remedies allow us to simplify and expedite 
the remedy selection process.
    To reduce cleanup costs, EPA has established a Remedy 
Review Board to review proposed high-cost remedies at Superfund 
sites. In fiscal year 1996, the board reviewed 12 proposed 
cleanup remedies, resulting in potential future savings of $15 
million to $30 million in cleanup costs.
    We also established a technical review process where 
targeted remedies are reviewed to determine whether new cleanup 
technologies may be applied that will reduce the cost of 
cleanup while still providing the long-term protection of human 
health and the environment. These reviews alone have provided 
approximately $280 million in potential future cost savings.
    EPA is now offering orphan share compensation to encourage 
settlements and reduce litigation and transaction costs. Under 
the new orphan share administrative reform, EPA offers to 
forgive past costs and future oversight costs of settling 
parties to cover all or a portion of the orphan share 
represented by insolvent parties. In fiscal year 1996, the 
agency offered more than $57 million in orphan share 
compensation to responsible parties at 24 Superfund sites.
    EPA has increased liability fairness and efficiency by 
publicly offering to reach no-cost--that is, zero-dollar--
settlements to the smallest waste contributors, known as de 
micromis parties, to provide litigation protection from large 
waste contributors. EPA is also aggressively entering into de 
minimis settlements to get small waste contributors quickly out 
of the Superfund liability system. More than 14,000 de minimis 
settlements have been reached by the agency; more than two-
thirds of those accomplished during the past 4 years.
    States are now assuming more responsibility for waste 
cleanups under several administrative reforms. EPA is sharing 
authority to select cleanup responsibilities with qualified 
States and tribes. States and tribes will be able to select 
remedies at Superfund sites with minimal EPA oversight.
    A recently issued EPA memorandum that established criteria 
for voluntary cleanup programs is paving the way for additional 
memorandums of agreement to be entered into between States and 
EPA. These agreements govern the division of responsibilities 
for wastesite cleanups. Eight States have agreed to MOAs, and 
several more agreements are close to completion.
    EPA is expanding its efforts to redevelop abandoned and 
contaminated properties throughout the Nation. We have funded 
76 brownfields pilots to encourage State and local governments 
and private developers to identify and assess contaminated 
properties and work together to clean up and redevelop those 
properties.
    Mr. Chairman, the Clinton administration is committed to 
making the Superfund faster, fairer, and more efficient. The 
Superfund administrative reforms have gone a long way to help 
us meet that goal.
    That concludes my testimony, Mr. Chairman. I would be 
pleased to answer any questions from the subcommittee members 
concerning the current status of the program.
    [The prepared statement of Mr. Laws follows:]
    [GRAPHIC] [TIFF OMITTED] T1517.088
    
    [GRAPHIC] [TIFF OMITTED] T1517.089
    
    [GRAPHIC] [TIFF OMITTED] T1517.090
    
    [GRAPHIC] [TIFF OMITTED] T1517.091
    
    [GRAPHIC] [TIFF OMITTED] T1517.092
    
    [GRAPHIC] [TIFF OMITTED] T1517.093
    
    [GRAPHIC] [TIFF OMITTED] T1517.094
    
    [GRAPHIC] [TIFF OMITTED] T1517.095
    
    [GRAPHIC] [TIFF OMITTED] T1517.096
    
    [GRAPHIC] [TIFF OMITTED] T1517.097
    
    [GRAPHIC] [TIFF OMITTED] T1517.098
    
    [GRAPHIC] [TIFF OMITTED] T1517.099
    
    [GRAPHIC] [TIFF OMITTED] T1517.100
    
    [GRAPHIC] [TIFF OMITTED] T1517.101
    
    [GRAPHIC] [TIFF OMITTED] T1517.102
    
    [GRAPHIC] [TIFF OMITTED] T1517.103
    
    [GRAPHIC] [TIFF OMITTED] T1517.104
    
    [GRAPHIC] [TIFF OMITTED] T1517.105
    
    [GRAPHIC] [TIFF OMITTED] T1517.106
    
    [GRAPHIC] [TIFF OMITTED] T1517.107
    
    Mr. McIntosh. Thank you very much, Mr. Laws. I appreciate 
that.
    Let me now yield my questioning time to our vice chairman, 
Mr. Sununu.
    Mr. Sununu. Thank you, Mr. Chairman.
    I would like to just take a few moments to talk, not 
necessarily about the methodology--and I understand your 
concerns, Mr. Laws, with regard to your policy--but to try to 
talk a little more specifically about where we are and what the 
public can expect in the pace of cleanup and the effort and the 
commitment that's going on, and hopefully find a way to improve 
the situation.
    I will come back to that point. That's where we need to go 
from here, and I'm very reluctant, despite the commitment and 
the effort, not just at the Federal level, but at the State 
level, as well, to deal with this problem. I don't believe that 
we ought to suggest that all is well, that we're streaming 
along, that everything is working efficiently or as efficiently 
as it can, because that detracts us from the most important 
aspect of these hearings and of our goal, which should be to 
improve the current process.
    Mr. Laws, you spoke about 410 sites that have been 
completed, have been cleaned up. My question for you first is, 
410 sites cleaned up, how many of those sites have been 
delisted?
    Mr. Laws. A very small portion; 120, approximately, have 
been.
    Mr. Sununu. So less than half of those have been delisted. 
So despite the fact that we use terms like ``cleaned up,'' the 
fact is that they remain hazards, that there is still an issue 
out there even for the vast majority of those sites.
    Mr. Laws. I wouldn't characterize that they remain 
hazardous. What construction complete indicates is that all of 
the construction necessary to clean up a site has occurred. 
There are a lot of operation and maintenance responsibilities 
that go on.
    Mr. Sununu. So they are contained.
    Mr. Laws. It's more than contained. There are things that 
will go on. You have to realize that in a lot of these sites it 
took, literally, hundreds of years to create the contamination. 
You can't make it go away in 4 or 5 years; that's just 
impossible.
    No one is suggesting that all is well in the Superfund 
program. This administration is probably the first one to admit 
that there were major problems in the administration and the 
law of Superfund, and we've taken tremendous strides in 
correcting that. What we are saying is that we think the 
program is improving; that is, it's different from the program 
that was in existence 5, 10, or 15 years ago.
    We are in no way saying that it is fixed. We are still 
supportive of comprehensive Superfund reform legislation, but 
what we are saying is that the debate on how to fix Superfund 
must take into account how this program is operated today, and 
not go back and listen to war stories about how the program was 
run 10 and 12 years ago.
    Mr. Sununu. I would certainly agree, generally, with those 
remarks. Again, I appreciate the efforts that are being 
undertaken every day by people at sites. As I mentioned, people 
are undertaking those efforts at a large number of sites, in my 
district, in particular.
    So when we throw the 410 number, that refers to areas where 
the construction is complete, and obviously there is still 
activity going on. Let's try and get a handle on how long that 
construction phase takes place. Another number that I have 
heard discussed is that, over the past 4 years, 250 sites have 
been cleaned up. Now, again, I guess that means at 250 sites we 
have completed construction; they haven't been delisted.
    Mr. Laws. That's correct, sir.
    Mr. Sununu. But of those 250 sites that have been cleaned 
up in the past 4 years, how many of those were listed and 
cleaned up in the past 4 years? In other words, on how many of 
those sites has the cleanup activity actually taken or 
construction activity actually taken 4 years or less?
    Mr. Laws. Of the sites that have been cleaned up in the 
last 4 years, are you asking when were they listed?
    Mr. Sununu. No, I'm saying, we hear the phrase ``250 sites 
with completed construction.'' So 250 sites with completed 
construction, but how many of those has the construction period 
actually taken 4 years or less?
    Mr. Laws. There have been some. I mean, we would have to 
break out the entire list. We can provide that to the 
subcommittee.
    Mr. Sununu. Do you have any feel? Because I don't want to 
just use one statistic to characterize all 250 sites. If we 
don't have an answer to that question, what is the average time 
to clean up those 250 sites? We see an average construction 
time of 12.5 years; that's the current average, but I'm trying 
to get a better feel for the 250.
    Mr. Laws. We believe the current average is closer to 8 to 
10 years.
    Mr. Sununu. So for the 250 where we have completed 
construction, we're still talking about 8 years, 10 years, or 
perhaps even more, on average, to clean up a site.
    Mr. Laws. We think it's 8 to 10. We think it's going down. 
And we think that once we get continued benefits of the 
administrative reforms that it will go down even further by the 
year 2000. Clearly, Congress can help us. If we get a Superfund 
reform law, we could probably shave some more time off.
    Mr. Sununu. I'm looking forward to doing everything I can 
to help you decrease that amount of time. But to be clear, you 
think that the average time to clean up a site is going down?
    Mr. Laws. Yes.
    Mr. Sununu. Has the agency been able to present statistical 
evidence that would indicate that the average time to complete 
construction at a site is going down?
    Mr. Laws. We do have our analysis to support our position, 
and we can provide that to the subcommittee.
    Mr. Sununu. I would be interested in any statistical 
evidence that you might be able to present. Let me try and look 
at one other way to determine whether or not the amount of time 
for construction is going up or going down, and that is to look 
at the rate that we're completing sites. We all know the NPL is 
actually increasing, and that's a fact of the large number of 
sites that are out there.
    So we have a list of sites whose total number is 
increasing. We have, obviously, a large degree of resources 
being committed, and rightly so, to the effort. At what rate? 
How many sites per year have we been able to complete 
construction on over the past--again, just talking in 4- or 5-
year terms--in the past 4 or 5 years, how many sites are we, on 
average, completing construction on per year?
    Mr. Laws. We're averaging now 64 to 65. I would point out 
that in the President's budget he has asked for a substantial 
increase for the Superfund program to address that very 
problem, that we do have a backlog of sites that are ready to 
go, that can be cleaned up in a short timeframe. We are 
anticipating that, by the year 2000, we will be able to clean 
up, under current budget levels, an additional 250 sites. The 
President is proposing to double that to 500 sites, and his 
budget reflects the amounts of money that will be necessary to 
accomplish that.
    Mr. Sununu. I understand that, and I appreciate that 
commitment. I will also point out that I am pleased that it 
shows a funding commitment similar to that that was proposed in 
legislation in the last session of Congress, as well.
    You are averaging 60 or 65 sites per year, construction 
completed, now; 3 or 4 years ago, what was the average; how 
many sites were you completing per year?
    Mr. Laws. That has been the range for about the last 4 or 5 
years.
    Mr. Sununu. So the rate hasn't changed, unfortunately. The 
number of sites we're completing construction on per year 
really isn't increasing at all.
    Mr. Laws. No, but there are a lot of factors that go into 
that. That could be and most likely is a reflection of what our 
budget levels have been. I mean, that's the reason that a lot 
of these reforms have been implemented. The reason we have gone 
to a national prioritization system is that we have got a lot 
more sites that are ready, that could be cleaned up, than we 
have dollars to fund them.
    Mr. Sununu. And I appreciate that.
    Mr. Laws. So what we're seeing with the dollars is just a 
reflection of the steady state of the Superfund budget over the 
last few years.
    Mr. Sununu. So with the current funding levels, 
improvements in technology, improvements in effort, 
improvements of efficiency that may have taken place over the 
past 3, 5, 6 years hasn't improved your ability to clean up a 
greater number of sites.
    Mr. Laws. I would not agree with that, Congressman. I mean, 
what I'm saying is that the numbers that have come in, because 
of our funding capabilities, have gone down. The numbers of 
sites that are ready, that could be cleaned up in a shorter 
amount of time, increased significantly. We had sites at the 
end of last year that we couldn't fund, that were ready to go 
to construction, that we couldn't fund. That number went up the 
last fiscal year, and it's going to go up this fiscal year, as 
well, and that is part of the reflection of the President's 
budget request for fiscal 1998.
    What we have done is gotten more sites to the point where 
we can make a big influx of dollars to clean them up, but we 
don't have the dollars to do that, so they are going to sit 
there until we get those dollars.
    Mr. Sununu. To clarify, my point is that, for a given 
amount of money, I believe we should be able to find ways to 
employ new technology to improve the practices we have, to 
increase the number of sites that we are completing 
construction on, for a given year, for a given amount of 
funding.
    Mr. Laws. I agree with you wholeheartedly.
    Mr. Sununu. I think that the overall funding levels have 
been relatively consistent, but we have not been able, 
unfortunately, to see an improvement in the number of sites 
that we completed.
    One last question--and then I will certainly yield to 
anyone else that would like to ask some questions--and that is, 
you talked about trends or a trend of reduced time to complete 
construction, which I think interests us all, and statistics or 
data that you might have to show this positive trend. How many 
sites are included in the sample that is used to identify that 
overall trend?
    Mr. Laws. That is by looking at all of the sites on our 
construction complete list, the 410.
    Mr. Sununu. So you look at all 410 sites, and you are 
saying, by analyzing that data, you show, on a year-by-year 
basis, we're reducing the total time for construction?
    Mr. Laws. To complete the construction; that's correct, 
sir.
    Mr. Sununu. And that's information that you would be 
comfortable sharing with the committee?
    Mr. Laws. Oh, of course.
    Mr. Sununu. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. McIntosh. Just let me follow up very quickly on that. 
Mr. Shuster, last August, had written complaining that data 
supporting the assertion that there was a 25 percent 
accelerated pace of cleanups hadn't been received. Has he been 
provided that data?
    Mr. Laws. Not all of it.
    Mr. McIntosh. No. Is that the same data that you are 
referring to here?
    Mr. Laws. Yes.
    Mr. McIntosh. When will they be able to make that 
available?
    Mr. Laws. Within the next 2 weeks.
    Mr. McIntosh. Within the next 2 weeks. OK. Thank you very 
much.
    Let me now recognize Mr. Sanders for 10 minutes.
    Mr. Sanders. Thank you very much, Mr. Chairman. I'm going 
to yield to Mr. Waxman in a moment. I would just like to begin 
by making two points. I think we can all agree that coming with 
an objective and fair assessment of how well an agency is 
dealing with this very, very complicated problem isn't easy.
    Several examples: We talk about the number of Superfund 
resolved and cleaned up. I trust that there is no disagreement 
amongst you or the members of this committee that you could 
have one site which is in terrible shape, which requires a 
whole lot of money, and you could have the agency do an 
excellent job on a project which takes many, many years. And 
then you could have 10 other sites which do not have serious 
problems, and the agency could do a bad job and yet clean them 
up in a short period of time.
    You lump them all together, and we say, ``Well, gee, they 
didn't do a good job here,'' or ``They did do a good job 
there,'' and you end up with a conclusion that means absolutely 
nothing.
    Mr. Laws, is that a fair assessment of the situation?
    Mr. Laws. I think that would be.
    Mr. Sanders. So you throw all these things in the hopper; 
they end up suggesting perhaps nothing.
    Second of all, what I would suggest--and we will get into 
this at some length later--we have some very, very serious 
problems with the methodology that the GAO used, and we will 
talk about that later. But I would hope, Mr. Chairman and 
members of the committee, that we could all recognize this is, 
in fact, a very, very complicated problem.
    I would now yield to the ranking member of the entire 
committee, Mr. Waxman.
    Mr. Waxman. We've changed the rules on the way committees 
operate, and we can do a half hour on each side, but rather 
than do that, the Chair seems to be indulgent of Members to go 
a little bit longer than ordinarily is the case, just to 
complete our questioning. I thank him very much for that 
courtesy to us.
    I want to talk about this methodology for this GAO report, 
because it's important, when we use numbers in public policy, 
we make sure we're using the right numbers. In my work with 
environmental issues, I've learned to take nothing at face 
value.
    As I understand, Mr. Guerrero, how GAO did its evaluation, 
it took EPA's data to determine the date each site is 
discovered, listed, and determined to be cleaned up. Then you 
looked at the sites that are listed in a given year and 
calculated the average numbers of years between the discovery 
and the listing. And then you calculate the average cleanup 
time the same way; that is to say, you look at all of the sites 
determined to be cleaned up in a given year, and then calculate 
the average years since the listing.
    So you go backward. You take what happened in a given year, 
and you go backward to when it was first listed. I have worked 
with GAO in the past, for many years. I asked GAO to do an 
evaluation for me on drug issues. I want to have a chart about 
that, because I'm going to show you what GAO said about this 
kind of an evaluation.
    But the reason I'm concerned about how unfair the 
methodology is, we know that during the Reagan years the 
administration was hostile to Superfund, so hostile, in fact, 
that the person in charge of it went to jail for failing to 
enforce the law. Few sites were cleaned up in the beginning. 
Most sites were deferred.
    Under your methodology, because you ignore the sites that 
aren't cleaned up, the Reagan administration looks very good. 
Its average cleanup time for those very few sites that it 
cleaned up is short. Wouldn't that be the case?
    Mr. Guerrero. I'm sorry, I didn't follow the question.
    Mr. Waxman. If you looked at the Reagan years, you would 
have to say they had a pretty good record, because they didn't 
take on a lot of sites, but what they took on they cleaned up 
real quickly.
    Mr. Guerrero. Well, for that reason, Mr. Waxman, we did not 
include that data in our analysis.
    Mr. Waxman. But for your methodological approach, if you 
looked at it, the way you analyzed this issue, you would have 
to say they had done a pretty good job. On the other hand, the 
current administration's record looks poor. The current 
administration is cleaning up this huge backlog of cases. These 
are sites left over from the early 1980's.
    It is certainly good public policy to clean up this 
backlog, but under your approach, the Clinton administration, 
to evaluate them, they get penalized. It looks like their 
average cleanup time goes up because you include in that 
average cleanup time the huge backlog of sites left over from 
the prior administration. So a methodological approach that 
makes an administration that is doing a good job look bad, 
while making a bad administration look good, seems flawed to 
me.
    Now, I have this quote here. This is a quote from GAO, and 
this quote says that--when you measure the time it takes to get 
FDA approvals for drugs--GAO said, ``Whenever the possibility 
of a backlog exists, basing time on year of approval is a less 
appropriate way to measure current practice because it 
incorporates older applications. In contrast, time based on 
year of submission eliminates the confounding effects of the 
backlog and, therefore, is the preferable measure.''
    Now, it's my understanding that there is a considerable 
backlog in cleaning up the Superfund sites, and that was your 
testimony, as well. Does your measure follow the guidelines 
given in the GAO report that I have cited?
    Mr. Guerrero. We certainly took that into consideration 
when we developed our measures.
    Mr. Waxman. But you didn't use their evaluation method; you 
rejected it.
    Mr. Guerrero. We used a different evaluation technique 
because we were attempting to show a different thing.
    Mr. Waxman. Well, the measure you use in your report, I 
think, is less appropriate as a way to measure the current 
practice. I find it troubling that you are putting on measures 
that your own organization would find misleading, because GAO 
says whenever you go look at a situation where there is a 
backlog, if you measure the time for approval without looking 
at the time it took to deal with the whole backlog, you are 
clearly going to get a longer period of time. It's going to 
make it look worse.
    Mr. Guerrero. We don't dispute the fact that a backlog can 
influence that, but we did not set out to look at current 
practice and current timeframes. We looked at how could you 
describe the productivity of this program over time.
    Mr. Waxman. OK. Well, let me walk through your methodology 
with you, and I want another chart to go up. I'm going to give 
you a hypothetical situation. Let's say there's no policy 
change, only a few sites, and cleanup progresses at a steady 
pace.
    Suppose there's an agreement to list 10 sites in the first 
year and to clean up those 10 sites at a rate of 1 every 2 
years over the next 20 years. The next year we list another 10 
with the same agreement; we clean up 1 of those sites every 2 
years for the next 20 years. The third year we list another 10 
sites with the same agreement. In other words, nothing changes 
from year to year; 10 sites are listed, and those 10 sites are 
cleaned up over a 20-year period.
    Now, let's look at the chart to the left. This chart shows 
the data in the way your organization said was the preferable 
measure, at least when we asked them to look at the backlog of 
drug approvals. The 10 sites listed in year 1 took, on average, 
11 years to clean it up. The 10 sites listed in year 2 took, on 
average, 11 years to clean up, and so on. In other words, a 
straight line on that chart shows there is no change in policy 
and, therefore, the average cleanup time does not change from 
year to year.
    Wouldn't you say, as you would evaluate that progress, that 
it's proceeding at a steady pace?
    Mr. Guerrero. Well, I can't speak to this specific example.
    Mr. Waxman. Well, why can't you speak to it? I've given you 
a hypothetical. I've given you the facts, and we need to show 
how it works out on a chart if you follow the exact same 
pattern year after year. Wouldn't that show that there is a 
steady pace of proceeding to clean up?
    Mr. Guerrero. The difference between the listing by a 
completion cohort, which is what we did, and the listing here, 
the example you give, by a listing cohort, is exactly the issue 
that EPA raised with us in their comments to our draft report 
back in November. When we looked at their numbers, we had 
particular problems with using a listing cohort to assess the 
progress of the Superfund program.
    The particular problem was that it will always, at this 
stage, show far more favorable results than the decision 
cohort. And the reason for that is, it's based simply on the 
observations which are incomplete at any given time and does 
not take into account the backlog.
    Mr. Waxman. I'm talking about the problems in your 
methodology, and the problem in your methodology--which GAO 
already indicated there are problems in that kind of a 
methodology, under other circumstances--is that you, in effect, 
show a distorted picture because of that impact of the backlog.
    I use that example which shows a steady way that they are 
handling it, that 10 sites were listed, in the 5th year get 
cleaned up at the same rate as the 10 sites listed in the 4th 
year, and the same rate as the 10 sites listed in the 3d year, 
and so on. There is no change across the time.
    I would like you to put the next chart up. This shows the 
kind of bias. Using your methodology, you can see that it looks 
like it is going to take a longer period of time because you 
are calculating from the date going backward. It shows cleanup 
times increasing, when, in fact, cleanups are happening more 
quickly.
    Mr. Karpman. Excuse me, Mr. Waxman.
    Mr. Waxman. Yes.
    Mr. Karpman. I'm not sure I follow you yet on the middle 
chart. Are you saying that all of the sites are completed in 
1983, and you have the full measures of them?
    Mr. Waxman. No, I'm saying that there are 10 sites listed 
in year 1, and it took, on average, 11 years to clean it up. 
And the 10 sites listed in year 2, 11 years to clean that up. 
And each year it's the same.
    But if you look backward, then you are looking back at the 
time of completion from the very, very beginning, and that 
seems to me the fallacy in your methodology. It's always got to 
be skewed. I mean, here you have an administration that's 
trying to deal with a backlog. If you didn't have a backlog, 
then it wouldn't so distort what is going on, using your 
methodology.
    Mr. Karpman. May I make a comment?
    Mr. Waxman. Sure.
    Mr. Karpman. Thank you. Regarding, first, the quote, I have 
a report, PEMD-96-2, which is from the same division, in which 
it says, ``The two methods provide different information and 
are useful for different purposes. Using the date of decision 
cohort,'' which is the approach GAO took, ``is useful when 
examining productivity and the management of resources. This 
method takes into consideration the actual number of 
applications from your request reviewed in a given year, 
including all backlogs from previous years. Alternatively, 
using the date-of-submission cohort is useful when examining 
the impact of a change in FDA review policy, which quite often 
only affects those applications submitted after its 
implementation.''
    The operative word there is ``current practices.'' That's 
as if what we were trying to do is measure some programmatic 
change, and we certainly did not in this objective study.
    Mr. Waxman. Excuse me. The heading of your testimony is, 
``Cleaning up sites is taking longer.'' The reason we are 
holding this hearing today--it's not even on a final report--is 
so that the message could get out that cleaning up sites is 
taking longer. That would make people think that Superfund is a 
failure. But, in fact, you aid that conclusion which you cannot 
reach by the methodology that's flawed.
    Mr. Karpman. Sir, when you measure forward in time, you are 
only taking into account those sites forward. If I can give an 
example, think of a weight loss clinic. You have 100 people 
enter a weight loss clinic. You want to see what happens to 
them. I would submit that that weight loss clinic will then 
say, ``Well, 30 people finished, and they lost an average of 10 
pounds. Case closed.'' But I think what we were tasked to do is 
follow those 100 people and see, over a period of time, what 
happened to them.
    Mr. Waxman. But your example has no backlog, does it? What 
we are dealing with is a situation where we are penalizing the 
progress based on going and dealing with the backlog.
    Mr. Karpman. You say my example has a backlog--it does not 
have a backlog.
    Mr. Waxman. Yes. You are giving me an example, and I'm 
trying to figure out the relevance of it.
    Mr. Karpman. Well, the problem with the prospective study, 
the example you are showing, you are only using a portion of 
the cases to compute something in a given year.
    Mr. Waxman. Yes, but in my hypothetical example I'm telling 
you in the future how everything happens, the same amount of 
progress in cleaning up each site listed, and how, if you 
follow that kind of hypothetical example, which we would all 
say was steady progress, using your methodology it would look 
like it's a slowed-down, delayed progress.
    Mr. Karpman. I would concede a straight line, but I think 
what you need to concede is that, in a given year, you don't 
have all the information.
    Mr. Waxman. No, but in my hypothetical example you do. And 
given my hypothetical example where you do have the 
information, using your methodology we end up with a chart like 
the one at the far left, which says the average time to clean 
up would mean it's taking longer.
    That's the point I'm trying to make. By using your 
methodology--which GAO told us they wouldn't use because it's 
not appropriate, in other circumstances--you used here, I think 
your conclusion then becomes unhelpful, inappropriate, and not 
consistent with what we need to evaluate what reforms have 
taken place in the way Superfund cleanup is conducted, what 
changes we ought to make.
    Do you have recommendations for us to help, or do you sort 
of say you don't know whether the reforms are working, which 
means we don't know whether we ought to do something to change 
the plan.
    Mr. Guerrero. One of the problems, Mr. Waxman, with this 
example and the Superfund data that we analyzed from EPA is 
that, while in this particular case you may have all the 
outcomes, in Superfund you don't. There is an awful lot still 
in process. To use a date of listing cohort, as opposed to a 
date of decision cohort, would effectively give you an 
understated average time to complete those cases, because the 
mean or the average will only rise over time, as additional 
cases out of the backlog are finished.
    So, in other words, EPA's criticism of our report offered a 
methodology that was more seriously flawed.
    Mr. Waxman. Well, I think that you can raise flaws with 
both methodologies. The problem with your methodology is, you 
reach a conclusion that cleaning up sites is taking longer, and 
I think that conclusion cannot be reached in a legitimate way, 
using the methodology that you have offered to us. Your 
methodology has to distort the progress that is made.
    Mr. Chairman, you have been very indulgent in the time that 
is allotted to me. Perhaps, when other Members have completed, 
we can go back to this, but this is the complaint I have with 
the GAO report. It isn't a final report. You ought to think 
this over. You ought to talk to the other people at the GAO who 
rejected this kind of methodology because they thought it was 
inappropriate, because they thought it would distort the 
conclusions.
    I think what we have is a report that is fairly useless for 
policymakers as a guide as to what actions we ought to take for 
the future.
    Mr. Czerwinski. Mr. Waxman, may I?
    Mr. Waxman. It's up to the Chair.
    Mr. McIntosh. Go ahead and make your comment.
    Mr. Czerwinski. You raise some very interesting concerns 
about the methodology, and they are concerns that we have had. 
We did not rely solely on one methodology. We looked at not 
only the cohort analysis going backward but also forward, and 
found that it verified the results. We also tried to make 
adjustments for the backlog, found that it verified the 
results. We went into the different phases of the cleanup 
process, and, again, those were stretching out as time went.
    So your points are very well taken and they are ones that 
very much concerned us, but they also did not change the bottom 
line of where we came out.
    Mr. Waxman. The only comment I would make, and maybe we can 
get into it later, is, EPA used an analysis showing that their 
progress time was going down, by using a methodology of moving 
forward and based on the time of the listing. Even though you 
acknowledge in your testimony and your report the backlog and 
the complications that are there, you lead to a conclusion 
which is solely based on this methodology, which I think is 
flawed, that says that cleaning up the sites is taking longer.
    Mr. Guerrero. If I could just clarify one point there, that 
the title--and we were very careful with this exactly for that 
reason--to say that the statement is entitled, ``The times to 
assess and clean up hazardous wastesites exceed program 
goals.'' We make no projection of timeframes in the future, and 
one of the approaches that we used, and it was not the sole 
approach we used, talks about times that it has taken in the 
past.
    Mr. McIntosh. Let me move on to the next. Before I lead to 
Mr. Snowbarger, let me make two points on this that I think are 
important. One, Mr. Waxman's chart there and his preferred 
methodology--and I don't know whether that was meant to be a 
hypothetical example, Henry.
    Mr. Waxman. That's a hypothetical example where everything 
is being done consistently, the same amount of time to clean it 
up. Using one methodology, you would say it's equal; using 
another methodology, the exact same situation, would show 
there's a gap because you are looking backward.
    Mr. McIntosh. And my point is that 11 years in the 
hypothetical--and we could find out what the real data is, in 
and of itself, unacceptable. Whether it was back in the Reagan 
or Bush or Clinton administrations, we need to do better in 
terms of reducing that time, as an overall goal.
    The second point--and I want to check to confirm this--but 
it's my understanding that your methodology that you used in 
the report is the same one that EPA uses in its end-of-year, 
fiscal year, trends analysis to justify its budgets when they 
come up here to Congress. Is that correct?
    Mr. Guerrero. That's correct. It's the same approach that 
EPA has used. It's also an approach that the CBO has relied on 
to estimate timeframes for cleanups, and they, in fact, came 
out with higher estimates than we did.
    Mr. McIntosh. So since the inception of the program it has 
been used by the agency and CBO to measure progress and 
determination of what budgets would be necessary to continue 
the program.
    Mr. Guerrero. That's correct.
    Mr. McIntosh. Mr. Laws, do you agree with that?
    Mr. Laws. I don't know.
    Mr. McIntosh. OK. If you want to put anything in the record 
later on that, let me know.
    Let me now yield the rest of this 10-minute segment to Mr. 
Snowbarger, if he has questions.
    Mr. Snowbarger. Yes, thank you, Mr. Chairman.
    My line of questioning is a little simpler. Simpler minds 
require simpler questions, so I hope you will bear with me and 
walk me through this, not having a great deal of background 
either in the Superfund or as my colleague, Mr. Sununu, with an 
engineering background.
    This is for the GAO and whoever needs to respond. You have 
described the long time that it takes in evaluating sites and 
deciding whether to place them in the Superfund program, so let 
me try to see if I can understand the consequences of that slow 
pace. Now, how many sites could be added to the program in the 
future? What's your estimate of that?
    Mr. Guerrero. Our estimate of that is from approximately 
1,400 to 2,300 sites.
    Mr. Snowbarger. So there are a potential of 1,400 to 2,300. 
How many have we been adding, let's say per year, over the last 
few years?
    Mr. Guerrero. The average over the last 5 years has been 16 
per year.
    Mr. Snowbarger. OK. So it's clear that we've got a problem 
getting these sites into the program to begin with. It sounds 
like we have an awful lot of sites and very few of them getting 
on the list; is that correct?
    Mr. Guerrero. That's correct.
    Mr. Snowbarger. What's the consequence of delaying in 
getting onto the list?
    Mr. Guerrero. The consequence, if they are not addressed 
under other authorities at the State level or by other Federal 
authorities, is that they will sit there, and the issues will 
remain unresolved regarding the issues of public health and 
safety.
    Mr. Snowbarger. OK. Well, let's shift over. Can you talk to 
me about the pace of cleanup? We've got a delay at the front 
end. It sounds like we also have a delay now, once it's placed 
on the list, after it has been added to the Superfund. How long 
does it take to clean up?
    Mr. Guerrero. In 1996, it took an average of 10.6 years.
    Mr. Snowbarger. From your study, why does it take so long? 
I guess that's the bottom line question.
    Mr. Guerrero. There are numerous reasons given for why it 
takes that long. EPA tells us that it has to do with a number 
of factors: complexity of sites, available resources, 
negotiations with responsible parties over who is liable for 
contamination. All of those are possible explanations. I have 
to say that we did not look into, specifically, whether any of 
those had greater validity than others.
    What we did observe is, there is a shift of resources 
within the Superfund budget, placing greater emphasis on the 
tail end of the process, that is, the cleanup itself. That has 
the effect of stretching out the front end or the study phase 
of the process. That study phase has been stretched out so long 
that it's driving up these averages.
    So, in other words, to get something out of the pipeline 
and put a lot of effort into that, the price we're paying--
we're robbing Peter to pay Paul. We're adding to the front end 
of the process and stretching the whole process out.
    Mr. Snowbarger. Let me follow up, then, with Mr. Laws, if I 
could.
    EPA's 1996, end of the fiscal year budget indicated that 70 
percent of EPA Superfund spending was going to cleanup, yet 
your budget shows only 47 percent of the trust fund actually 
goes to Superfund cleanups. I don't understand the difference 
between the 70 percent number and the 47 percent number.
    Mr. Laws. We don't subscribe to the 47 percent number, 
Congressman. We say that that amount of our budget goes to 
cleanup. It includes site assessment, our long-term actions, 
our early actions, our laboratory analysis, and what it costs 
to pay for our site managers.
    Mr. Snowbarger. What you just listed is all within the 47 
percent?
    Mr. Laws. It is within the 70 percent. That also includes 
some of our enforcement activities. We have a history of our 
enforcement program: for every $1 spent we bring in $7 from 
responsible parties. It also includes some of the work that is 
done by other Federal agencies, including the Justice 
Department, the Department of Health and Human Services, NOAA, 
and things of that nature.
    Mr. Snowbarger. So when the agency is talking about how 
much of their budget is going into cleanup, we're including an 
awful lot of other activities other than those directly related 
to cleanup.
    Mr. Laws. No, everything is directly related to cleanup. I 
mean, you have to run a cleanup program, and those are the 
components that are necessary to run that cleanup program. If 
you take any one of them away, you won't be accomplishing the 
same level of cleanup.
    Mr. Snowbarger. Well, are we, though, talking about 
virtually--well, the FTEs that are at your headquarters here in 
Washington, are they involved directly in cleanup, in your 
interpretation?
    Mr. Laws. They most certainly are, sir. Yes, they are.
    Mr. Snowbarger. Well, is there anything the EPA does that's 
not involved in cleanup?
    Mr. Laws. There's our management and support of the 
program; our contracting, part of that is not included.
    Mr. Snowbarger. And that's not included in the 70 percent 
that you're talking about?
    Mr. Laws. That's correct.
    Mr. Snowbarger. Well, fewer sites have been added to the 
NPL over the last 5 years, and you've cut your site assessment 
budget during that time period. It seems to me we would have 
expected that money to be marked for cleanup, and yet the 
cleanup budget doesn't seem to be increased over that period of 
time. Where did the money go?
    Mr. Laws. The money that is not going into site assessment 
is going into cleanup. We are doing things differently this 
year. If I could take a step back, when you talk about getting 
sites listed, the atmosphere for getting sites placed on the 
NPL has changed dramatically. There are a number of factors 
that play into that. Probably the main one is the fact that 
when this program was started, back in 1980, nobody knew how to 
do Superfund cleanup sites. It was entirely new. So the Federal 
Government assumed that responsibility.
    Since then, the States have taken up a tremendous amount of 
the weight of doing that. What has happened, then, is that we 
have entered into partnerships with the States. So when we 
discover a site, it's not automatically determined that that 
site is going to be placed on the National Priorities List. 
States are given the opportunity to work to clean them up 
themselves.
    We give opportunities to private parties to come in and 
clean sites, to work it out with the State. Whether that is 
going to happen or not, we don't know up front. We've had 
situations where the State thought they would be able to handle 
a site, where they did not. So you've got this time where the 
State was trying to work out the site, it didn't work, so then 
we have to restart the listing process.
    We are doing a lot more early removals. The General 
Accounting Office actually did a report on us last year that 
was very positive about our removal program which gets to sites 
before we have to go through the lengthy listing process. So 
the funds that are coming out of site assessment are going to 
support these new activities.
    If I could go a little farther, a lot of the things that 
have been leveled as criticisms are legitimate things that we 
should be looking at, but you are not getting the accurate 
picture of what's going on. We have an office that is dedicated 
solely to advancing innovative technology in hazardous waste 
cleanups, and it's a very successful office. It's the only one 
of its kind in the Environmental Protection Agency.
    We support innovative cleanups. We have recently, in our 
New England division--at a New Hampshire site, I might add--
entered into our first agreement where the Federal Government 
is going to share the risk of a failure of an innovative 
technology, something that the vendors of innovative 
technologies have been supporting for years.
    So what we are doing at the agency is trying to address a 
lot of the problems that have been raised over the years, and 
we are making progress toward it. Like I said before, no one 
here is saying that we have fixed this problem, but I don't 
think that it's fair, in the debate that we're going to be 
entering into under Superfund, to be trying to portray this 
program in the light that it was 10 and 15 years ago, because 
that is not the way this program is operating today.
    If you are basing decisions on a report that admittedly 
doesn't take into account the administrative reforms that we 
have put in place the last 3 or 4 years, I really question how 
that is going to aid in our debate.
    Mr. Snowbarger. I'm kind of confused here about the budget. 
It's my understanding that these are EPA figures. For 1995, it 
shows 47 percent direct site cleanup; 1996, it shows 71 
percent, and yet there has not been more money going to 
cleanup. I don't understand. Are we just renaming these things? 
We decide we need to show a better face on cleanup, so we add 
other functions in?
    Mr. Laws. I'm not sure what chart you are referring to.
    Mr. Snowbarger. Well, the two pie charts there.
    Mr. Laws. Like I said, I don't know where those charts came 
from.
    Mr. Snowbarger. I believe the figures came from your 
budget.
    Mr. Laws. I don't know that as a fact, sir. I mean, if you 
would like to see what our budget projections were for fiscal 
1995 and fiscal 1996, we can certainly provide that. If, in 
fact, that is correct, we will provide an explanation.
    Mr. Snowbarger. Yes, I would like to know. Again, if we're 
just reshuffling resources and calling them cleanup now, I 
think that's important for us to find out.
    Thank you, Mr. Chairman.
    Mr. Sununu [presiding]. Thank you very much, Mr. 
Snowbarger.
    Mr. Kucinich.
    Mr. Sanders. Let me speak for a few minutes and then give 
it over to you, Dennis.
    Mr. Kucinich. Sure.
    Mr. Sanders. Let me just begin, Mr. Chairman, by expressing 
a concern that I think we have a problem, and I'm not sure that 
we are addressing it effectively today. My concern is that this 
is an enormously complicated issue.
    I remember, when I was a mayor and I came into office, we 
had a guy who used to give us reports by telling us what a 
great job he was doing on everything. Fortunately, he never did 
anything, but he looked really good on paper. Then we had 
another guy who was knocking his brains out doing a good job, 
trying to do as much as he could, couldn't quite put it on 
paper, and it didn't look quite as good.
    I mean, one of the basic problems that you have is if you 
have somebody who works for the administration and wants to 
look good to us, who is not an expert on every detail, they 
could deal with minor problems and say, ``Look. We knocked this 
one off. We knocked that one off. We've got 83 projects we 
ended in 3 weeks. We're great.''
    Meanwhile, some of the major environmental crises facing 
this country are not dealt with. Children are getting sick, and 
somebody up here says, ``Gee,'' you know. So it is a tough 
problem, and I don't know that we're getting to the root of it 
today.
    Having said that, I happen to believe that we do need to 
take a very hard look at the Superfund. I happen to believe 
that there are problems there. I happen to believe that we 
could make it more cost-effective, could speed up the process. 
But I really would hope that we don't make it into a partisan 
issue and just the goal of it is to say, ``Hey, these guys are 
doing a terrible job. Cut their funding,'' or something like 
that. If we do that, we've done a real disservice to the 
public.
    I have some questions, but if Mr. Kucinich wanted to jump 
in now. Do you want to?
    Mr. Kucinich. Yes.
    Mr. Sanders. I will take it back after Dennis.
    Mr. Sununu. Please, go right ahead.
    Mr. Kucinich. Thank you very much, Mr. Chairman and members 
of the committee. It's a pleasure to join all of you on this 
committee.
    My questions dovetail some of the questions that Mr. 
Snowbarger raised relating to performance. I would like to 
direct the questions, with the Chair's permission, to Mr. Laws. 
And keep in mind that I am new here, so you may think these 
questions aren't relevant, but it appears to me they might be.
    Mr. Laws, you have had this program cut, as has been 
testified by the GAO, and you have talked about the 
implications somewhat. I'm just wondering, should this Congress 
or the administration be cutting the EPA's budget when there is 
a backlog of sites and the program has been overwhelmed?
    Mr. Laws. No, I don't think so. I think that the 
President's budget for fiscal 1998 reflects the fact that we do 
have a commitment to the American people. Because of some of 
the delays that we have admitted to, there are communities out 
there that we have been promising to get their sites cleaned 
up, and I think it's now time that we follow through on that 
promise. That's what the President's budget reflects, an 
increase for dealing with Superfund sites and not a decrease.
    Mr. Kucinich. Is it your opinion, Mr. Laws, that the 
budget, as has been submitted, is going to be adequate to 
expedite the process of the cleanup?
    Mr. Laws. Yes, sir. The budget includes a proposed $650-
million increase for Superfund. That is the first of a 2-year 
request in that amount, which will allow us, by the year 2000, 
to clean up an additional 250 sites.
    Mr. Kucinich. Do you have any recommendations other than 
the obvious funding one that would help the EPA expedite the 
cleanup and fix the problem of the delay?
    Mr. Laws. I assume that we will be engaging in a very 
healthy debate with the Congress in the months to come over 
Superfund reauthorization. We have had, over the last two 
Congresses, a very spirited back-and-forth on what is 
necessary.
    We are committed to reforming this law in a way that makes 
these cleanups go faster, that makes them fairer to the parties 
involved, but at the same time ensures that the people who have 
to live near these sites are fully protected in their health 
and in their environment. So I think that is where the debate 
will center, as to exactly what is going to be necessary to 
ensure that we can accomplish all of those goals.
    Mr. Kucinich. Thank you, Mr. Laws.
    Mr. Chairman and members of the committee, it seems to me 
that this committee might benefit, in terms of analyzing the 
performance here by the EPA, if we had the benefit of the 
manning tables, if you will, of personnel from the EPA, to see 
how reductions in the budget over the past couple years may 
have resulted in certain cutbacks that have affected directly 
the administrative functions of EPA that relate to these 
programs. Because anytime you cut money, you're cutting people. 
You cut people who do certain jobs, and the jobs aren't done, 
and then the responsibility shifts.
    I would like to, with the permission of the Chair, just 
make that request, if we could get that information. So then, 
if the funding levels come back, we get some idea of how 
personnel might be changed so that we would see a corresponding 
improvement in the function.
    Is it possible we could get that?
    Mr. Sununu. To the extent that the agency would like to 
submit that funding and personnel data, in addition to the 
other information that has been requested by the committee, I 
think it would be appropriate to include it for the record.
    Mr. Kucinich. Thank you, Mr. Chairman.
    Mr. Sununu. Thank you very much, Mr. Kucinich.
    The Chair recognizes Mr. Barr.
    Mr. Barr. Thank you.
    Mr. Laws, during the last questioning, maybe to assist you 
here, since you said you didn't know where the figures came 
from on those pie charts, they do come from EPA. They are 
directly from your agency, and we can provide those to you, if 
you would like, in a small version. Would that help?
    Mr. Laws. I'm sorry, Mr. Barr.
    Mr. Barr. I'm questioning, Mr. Laws. I'm sorry. Let me 
repeat it then. You expressed in previous questioning that you 
didn't know where the information came from on the charts, to 
which I think the chairman of the subcommittee referred. Is 
that correct?
    Mr. Laws. Yes.
    Mr. Barr. OK. Trying to help you out. The information came 
from EPA, and that is what the bottom of the charts say. Would 
it help you, in responding to questions to try and determine 
why we have gone all of a sudden from 47 percent to clean up to 
71 percent, to have a smaller version of those charts which 
indicate also that they are EPA's figures? Or would that not 
help you in responding to questions?
    Mr. Laws. Well, I mean, what you are talking about is for 
the budget submission; what we are talking about is how the 
program operates. What the program does is, it looks at what 
are the dollars necessary for it to respond directly to sites, 
and that includes more than the actual dollars that are spent 
to clean up a site.
    Mr. Barr. You're right. I mean, they can include whatever 
you want to include in them. That's a given. Whatever people 
want to include in them, they include in them. All I'm asking 
is, would it help you to have those charts, because you 
expressed that you didn't know where the information came from. 
It does come from EPA.
    Mr. Laws. OK.
    Mr. Barr. Why don't you provide the witness those. That may 
help.
    Just so I have clear in my mind what your previous 
testimony was, also, Mr. Laws, I think that this was in 
response to questioning by the subcommittee chairman, that you 
don't know what methodology EPA uses in its budget submissions 
to the Appropriations Committee.
    Mr. Laws. No, I think the question was that the methodology 
that EPA uses was identical to the methodology that GAO used, 
and I'm not in a position to say whether that is, in fact, 
correct.
    Mr. Barr. OK. Do you know what methodology EPA does use in 
submitting and calculating its budget submission to the 
Appropriations Committee of the Congress?
    Mr. Laws. No, sir, I don't. We can provide that for you, 
but I can't tell you.
    Mr. Barr. Well, I don't need you to provide it for me. I'm 
just asking if you know what methodology they use?
    Mr. Laws. No, sir.
    Mr. Barr. OK. Also, Mr. Laws, I was intrigued by what I 
think is also your testimony that the Superfund program is now 
a fundamentally different program today. And I certainly 
recognize there is a time when we can make general statements, 
and general statements are appropriate, but I think we're at 
the point now where we need to be a little bit more specific.
    On what basis can you make that statement, when EPA has 
stated, as recently as just a couple of months ago in a 
submission to the Congress, ``Duration data would not be 
conclusive and results not complete for another 8 to 10 
years.'' In other words, if the data isn't even near being 
completed, how can you make a fairly general but very specific 
statement that--or very clear statement--that the Superfund 
program is fundamentally different today?
    Mr. Laws. Well, very simply because a lot of the problems 
that have been identified with the program simply aren't 
occurring. Others aren't occurring as often as they were in the 
past.
    The administrator likes to tell the story that when she 
first came into the agency, back in 1993, not a week went by 
that she didn't get a call from a Member of Congress or a 
Governor or a mayor, complaining about something happening at a 
Superfund site. And she said that doesn't occur anymore. We 
were always getting complaints from small parties who had been 
sued by larger parties.
    Mr. Barr. What do you read into that? Do you read into that 
that the programs are working?
    Mr. Laws. I think what I read into that.
    Mr. Barr. Hold on, please. I'm just asking you what you 
read into that. To me that doesn't mean anything, but maybe I'm 
missing something. What do you read into that, that Members of 
Congress are frustrated with the response, so they don't bother 
calling back, or that they are much more satisfied now, or that 
the programs have been concluded? I mean, what does that mean?
    Mr. Laws. I think what it means is that the issues that 
were being complained about we have taken very strong efforts 
in trying to address, and that they are, frankly, not occurring 
in the way that they were in the past.
    Mr. Barr. Well, if that's the basis on which EPA reaches 
conclusions.
    Mr. Laws. Well.
    Mr. Barr. Hold on.
    Mr. Laws. There are others.
    Mr. Barr. Sir, please hold on. Hold on, please. OK. I'll 
give you time, and I'm giving you time, but don't interrupt me, 
please.
    That is a very strange basis, it seems to me, on which to 
reach very broad conclusions to the American people and to the 
Congress about how EPA is faring and what problems have been 
resolved and what problems remain. The fact that, gee, Members 
of Congress don't call up and complain as much anymore, I mean, 
is there really not something a little more substantial that 
you can tell us that has been used as the basis by EPA to make 
these general statements about how well the programs are doing?
    Mr. Laws. As I was going to say, Mr. Barr, a lot of the 
problems that have been identified in the program have been 
addressed. We were constantly criticized that small parties 
were never intended to be in the Superfund liability net, were 
being brought into the case by larger parties who were trying 
to expand the liability net. We have addressed that by 
providing zero-dollar settlements to tiny parties and settling 
out de minimis parties; over 14,000 have been done. That is a 
fact as to things that did not occur in the past that are 
occurring today.
    We have been accused that we have not been carefully 
looking at high cost remedies and that there were cheaper ways 
to do that. So we established a remedy review board which is 
going to review every remedy that falls within a certain 
parameter of criteria. The Board first went into operation last 
year and has already resulted in between $15 million and $30 
million in savings.
    We have established a process where we're going to relook 
at old remedies to make sure that technology innovations and 
changes in technology and science that might have impacted our 
decision are relooked at. And if, in fact, a better decision is 
in place, it should be in place. In region one alone, we have 
had $56 million in savings because of changed remedies as a 
result of that initiative.
    I can provide, and I will, Mr. Barr, a list of the 
specifics as to why we think this program has changed and how 
we are doing things differently. One of the major criticisms of 
this program is that we cleaned everything up to residential 
use.
    Now, that is not how these sites are cleaned up, but what 
we have done is, we have made it a requirement that before we 
decide how a site is going to be cleaned up, we are going to 
determine what the reasonably anticipated future land use is. 
That is going to eliminate scenarios where sites which have 
been industrial for the last 100 years and will be industrial 
in perpetuity are even analyzed for a residential type cleanup.
    So there are very concrete examples as to why we believe 
this program has changed.
    Mr. Barr. OK. I would appreciate it if you would furnish 
that. If you would also, pursuant to--I think you indicated to 
the chairman that you would provide information on exactly what 
methodology EPA does use in its budget submission.
    Mr. Laws. Certainly.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T1517.108
    
    [GRAPHIC] [TIFF OMITTED] T1517.109
    
    [GRAPHIC] [TIFF OMITTED] T1517.110
    
    [GRAPHIC] [TIFF OMITTED] T1517.111
    
    [GRAPHIC] [TIFF OMITTED] T1517.112
    
    [GRAPHIC] [TIFF OMITTED] T1517.113
    
    Mr. Barr. That would help us, since there seems to be some 
disputes about methodologies here.
    Let me ask just one other question, Mr. Laws. I was looking 
at, again, some of these charts and graphs that have to do with 
the average time to complete Superfund cleanup projects. Is 
there any data that you all have that indicates, with some sort 
of tangible figures, how much it costs local communities in 
lost investment business coming into those communities during 
the course of whether it's 11 years or 20 years of a site being 
maintained on NPL?
    In other words, you have small communities all over 
America, and once a site is on the NPL it has a disastrous 
effect on new business coming into that community. Do you all 
have any studies or information on--and that sort of is a cost 
of having a site listed on the NPL, and I think a very real 
one. Do you have any data on how much it does cost the 
communities or the local governments?
    Mr. Laws. I'm not sure if the agency has any data that 
might reflect that. We can check and see if any of the local 
government organizations have done some sort of studies. My 
guess is, however, that it's probably more anecdotal as to what 
communities believe the economic impact of a Superfund site has 
been, just as anecdotally there is evidence that some of them 
actually benefit because of the construction activity that 
comes into the community in getting the site ready for economic 
redevelopment.
    I know there is not a study that we have done specifically 
on that, but there might be something that other organizations 
have done that we might be able to get.
    Mr. Barr. OK. If you are aware of any or could locate any, 
with reasonable efforts, I would appreciate it. I think it's 
relevant and important.
    There are some other questions I have, but I see that the 
time is just about up, so I will defer for right now. Thank 
you, Mr. Chairman.
    Mr. Sununu. Thank you, Mr. Barr.
    We will reserve time at the conclusion of Mr. Sanders' 
questioning, if you would like to add some additional comments.
    Mr. Sanders.
    Mr. Sanders. Thank you very much, Mr. Chairman.
    Mr. Chairman, if I may, as I understand it, Mr. Laws, today 
is your last day, and your co-workers are giving you a going 
away party.
    Mr. Guerrero. I thought this was his going away party. 
[Laughter.]
    Mr. Laws. I would assume they are having a little more fun 
right now than I am.
    Mr. Sanders. I would respectfully suggest, Mr. Chairman, if 
there are other questions that any Member might have of Mr. 
Laws, may we present them now, so that he can perhaps enjoy his 
last day in a little better way.
    Mr. McIntosh. Mr. Barr, would you like to conclude?
    Mr. Barr. Just one quick question, then, for Mr. Laws 
specifically.
    I think, Mr. Laws--and I think this was in response to a 
question previously by Mr. Sununu--that EPA does not have any 
evidence that shows that the average cleanup time is going 
down.
    Mr. Laws. No, I didn't say that. I'm not sure that that 
evidence has been put in a report type form. The data that we 
have gone through does indicate that, and we will provide that 
to the subcommittee.
    Mr. Barr. OK. That will be provided?
    Mr. Laws. Yes, sir.
    Mr. Barr. OK. Thank you.
    Thank you, Mr. Chairman.
    Mr. Sununu. If I may just conclude the questioning by 
yielding myself a few moments, Mr. Laws. I understand that, in 
a letter that you put together for Congressmen Oxley and 
Boehlert in May of last year, you responded for the EPA with 
regard to the Superfund reform proposal by stating that there 
wasn't evidence that would support your claim--meaning that of 
Congressman Oxley--that the existing liability scheme delays 
the time for cleanup.
    Contradicting that, however, was GAO testimony that stated, 
``EPA officials also said that the time to find the parties 
responsible for contaminating site and reach cleanup 
settlements can increase the cleanup times.'' These two 
statements, both by EPA parties or officials, obviously 
contradict one another.
    My question to you would be, in the light of the GAO 
findings, how can you suggest that the time to track down tens 
and sometimes hundreds of potentially responsible parties 
wouldn't delay the cleanup time involved?
    Mr. Laws. Because the analysis, the site investigation, the 
study of what is going to be necessary to clean up that 
particular site proceeds while the enforcement side of the 
House is looking to try and identify who the responsible 
parties are.
    I think, if you look at the time it takes, on another GAO 
report, for the private sector to clean up a site and the 
Federal Government to clean up a site, the difference is 
something like 6 months difference. So I don't think that the 
PRP search has a major impact on the length of time.
    Mr. Sununu. Thank you very much. At this time, I would like 
to return the Chair to Mr. McIntosh, who has one or two final 
questions.
    Mr. McIntosh [presiding]. Thank you, Mr. Sununu. Did you 
have any further questions before I finish up?
    Mr. Sununu. Not at this time.
    Mr. McIntosh. I wanted to check in with you--and I 
appreciate the panel's willingness to participate in all of 
this. I have a question for the General Accounting Office.
    Mr. Sanders is pointing out that you are trying to leave 
for an engagement.
    Mr. Laws. Yes, sir.
    Mr. McIntosh. I do have one more for the GAO, but I will 
put that on hold for a second and ask Mr. Laws a question.
    In your testimony, you had indicated that EPA had 
established a ``worst problems first'' priority system. The 
National Risk-Based Priority Panel has evaluated and tried to 
rank cleanup actions according to five different criteria: 
risks to humans and the environment; instability in 
characteristics of the contaminants; and economic, social and 
program management considerations.
    Now, based on these criteria, the panel had ranked one of 
the Superfund sites, the Havertown PCP site, the eighth worst 
cleanup project in the Nation. The site was placed on the NPL 
list in 1982. According to the documentation supporting the 
agency's decision to cap the site, this site is indeed one of 
the ones that is very stable.
    EPA has stated that the contaminants at this site, such as 
arsenic, dioxin, PCPs, and PAHs, all bind with the soil and are 
not volatile or highly mobile. The most highly contaminated 
area of the site is surrounded by a berm that prevents any 
further migration of soil.
    The agency apparently has also stated that these soils 
onsite present minimal threats to the community and, if capped, 
would present no threat to the community or anyone using the 
cap. Previously, EPA actions have stabilized the site so that 
there's no significant threat to local residents.
    Now, the relative priority of this response appears to have 
been established on a first-come, first-served basis rather 
than on risk. Does this site, in fact, present the type of risk 
that would make this the eighth worst cleanup project in the 
country, or was it listed that way because it was one that they 
were about to finish cleanup?
    Mr. Laws. No, actually the national risk priority system--
to get to the second point first--is actually working kind of 
perverse effect on those sites that are ready to complete 
cleanup. I mean, the sites that have had most of the work done, 
that are ready for maybe a final operable unit to be done--
where we have stabilized the risk, we have protected the 
communities--are constantly bumped to the bottom of the list by 
newer sites that are coming along where the sites have not been 
stabilized to that point. So actually the risk system works the 
other way.
    My understanding with the Havertown site, though, is that 
the reason it ranked so high was because of ground water 
problems and not because of the soil problem.
    Mr. McIntosh. That is what was confusing to me, because 
apparently the type of contaminants there all seem to be the 
type that do bind with the soil, so you would have less of a 
significant concern about the ground water problems than 
perhaps other sites where you've got water soluble 
contaminants.
    Mr. Laws. I'm not familiar with that particular site, but I 
do know that it was a ground water issue that was pushing the 
higher ranking of it.
    Mr. McIntosh. Do you know if that ground water problem that 
they did detect presented a great amount of risk?
    Mr. Laws. I think it was threatening a drinking water 
source, is my belief. I would have to check on that, but I did 
have a couple of conversations with the Regional Administrator 
about that site, and that's my recollection.
    Mr. McIntosh. OK. Mr. Laws, I do understand it's your last 
day, but perhaps the agency could give us some further answer.
    Mr. Laws. Actually, because it did refer also to the 
testimony of one of the earlier witnesses, we can provide the 
committee with an analysis of what the problem was, our 
responsiveness summary, which would have addressed the issue 
raised by the vendor who had testified earlier, and we can 
provide all of that information about that.
    Mr. McIntosh. Yes, that would be helpful, and some analysis 
about why it was placed at that risk level.
    Mr. Laws. Certainly.
    Mr. McIntosh. Thank you very much, Mr. Laws. I appreciate 
your coming. I don't think there are any other questions for 
you. We wish you well in your next life.
    Mr. Laws. Thank you very much, Mr. Chairman.
    Mr. McIntosh. One final question for GAO. I understand that 
you did not focus only on the trend lines for listing in 
construction completions, but also looked at sites that had 
gone through various stages of the listing process and the 
cleanup process. I wanted to check, what stages in each process 
did you observe that the average processing times had 
lengthened?
    Mr. Guerrero. Yes. The answer to your question is, yes, we 
did look at the stages. There were two areas that basically 
were driving the numbers. The first is, the period of time 
after all the initial assessments are done for listing was 
increasing. So the time between that point and the listing was 
increasing.
    Then, on the cleanup side of the picture, it was the time 
spent selecting a remedy and studying what possible remedies to 
use was driving the process.
    Mr. McIntosh. So, in each case, it was the latter stages 
that were doing it?
    Mr. Guerrero. In the first part, it was the very tail end; 
in the second part, it was the very front end of the process.
    Mr. McIntosh. Are both of those stages the stages at which 
there are a large number of parties that are consulted and 
brought into the process?
    Mr. Donaghy. Yes, there is some enforcement in the end 
stage of the listing process, where an attempt is made to find 
parties responsible for the contamination. And then, early in 
the cleanup process, there are negotiations. After listing, 
there are negotiations carried on with the responsible parties 
to attempt to reach a settlement.
    I think that the delay in getting the construction started 
at sites after they are listed is a result of a delay in 
starting the cleanup study, the process that leads to the 
selection of a cleanup remedy, and also a stretch-out in the 
time that it has taken to conduct that remedy selection.
    Mr. McIntosh. Let me just close by saying thank you for GAO 
coming and the work on your draft report. I look forward to 
seeing the final report. I have a high degree of confidence on 
the methodologies that you have used in that report. I think 
they will serve us well in this Congress as we move forward in 
looking at reauthorizing Superfund.
    Mr. Guerrero. Thank you, Mr. Chairman.
    Mr. McIntosh. Mr. Sanders, did you have a closing comment?
    Mr. Sanders. I'm not quite sure that we had the adequate 
time. I think more of the time was on your side. So I think 
we're entitled to at least 10 minutes.
    Mr. McIntosh. OK. I was not here. Mr. Sanders has some 
questions. Excuse me.
    Proceed.
    Mr. Sanders. Thank you very much. Mr. Chairman, despite the 
inauspicious beginning of this meeting, I certainly don't want 
to be terribly partisan, but I must raise an issue, and it's a 
quote from you, Mr. Chairman, which I want to bounce off the 
GAO.
    We have a memorandum here from the chairman, Mr. McIntosh, 
dated February 6, 1997, that states, ``GAO estimates that EPA 
will take, on average, at least 21 years to complete cleanups 
at nonFederal sites whose discovery was reported in 1995.''
    My question to Mr. Guerrero is, do you agree that it takes 
21 years? Is it appropriate to use your analysis to project how 
long it will take EPA to list and clean up sites that are 
reported in 1995?
    Mr. Guerrero. As I stated earlier, Mr. Sanders, our 
analysis does not allow you to project forward what those 
timeframes will be.
    Mr. Sanders. I don't want to put you on the spot, but I 
read you a quote from the chairman, and what I'm hearing from 
you, it's not a totally appropriate quote. You can nod your 
head if you don't want to offend anybody, but I'm understanding 
you to say that.
    Mr. Guerrero. The numbers are based on what it did take, 
the average times that it took in 1996, and that number is the 
sum total of those two timeframes.
    Mr. Sanders. So what you are saying, in essence, is that it 
is not useful, that the quote of the chairman is not 
necessarily appropriate or accurate, and that it is not useful 
for examining the impacts of changes in EPA Superfund policies 
and procedures which could affect the program's future 
performance.
    In other words, I guess the only point that I wanted to 
make is, the chairman had a quote, and I think it was probably 
not an appropriate quote, based on the information that you 
provided.
    Mr. Czerwinski. In all fairness, Mr. Sanders, though, I 
think that's probably from our lack of specificity in dealing 
with the chairman. We have been refining our message as our 
work progressed, and, most likely, the misunderstanding was due 
to our poor communication.
    Mr. Sanders. OK. And maybe that's one of the problems with 
having a hearing with a work in progress. Possibly.
    Mr. Guerrero. I would like to clarify, though, GAO's policy 
is to testify on work that is in progress, provided that we 
have sufficiently completed that work that we can usefully 
contribute to the discussions.
    Mr. Sanders. Let me just continue and suggest that, as I 
understand it, your methodology doesn't even look at the 
average time for sites reported in a certain year. Instead, it 
looks at the average for sites completed in a certain year. Is 
that correct?
    Mr. Guerrero. That's correct. That's what Mr. Waxman was 
talking about earlier.
    Mr. Sanders. OK. My conclusion would be that, hopefully, 
perhaps the chairman did not fully understand the situation 
when he made his quote. The same memorandum refers to the title 
of your draft report, ``It now takes more time to address and 
clean up hazardous wastesites,'' that's the title.
    This title tells me that you analyzed how long it takes to 
list and clean up sites under the new reforms, and it is a 
clear indictment of the reforms. Yet you testified that your 
analysis should not be used to judge the reforms or to project 
the average cleanup times for sites discovered after the 
reforms were adopted.
    Is this going to be the title of your final report?
    Mr. Guerrero. No, it will not.
    Mr. Sanders. So the title that you now have for your draft 
report, ``It now takes more time to assess and clean up 
hazardous wastesites''--interesting title--is, in fact, not 
going to be the title for your final report; that's correct?
    Mr. Guerrero. That's correct.
    Mr. Sanders. I think that's important to state for the 
record. Can you tell us what your new title will be?
    Mr. Guerrero. We haven't selected it. However, what I would 
want to say is that the approach used shows that it has taken 
the amount of time we indicated in these charts, in each of 
those years. The choice of the title for our draft report, 
which was sent to the agency for comment, as is a typical 
practice of ours, led us to believe that that could be 
misunderstood, so we are going to change the title of the 
report.
    Mr. Sanders. We appreciate it. We happen to think that the 
whole methodology, as you know, is misleading, not only the 
title, so we appreciate your at least changing the title.
    Mr. Chairman, as it was just established, in our opinion, 
in my view, the GAO's analysis should not be used to judge the 
current program or to project how long cleanups will take in 
the coming years. And it cannot show the impossible, that it 
took an average of 21 years to clean up sites, because 
Superfund hasn't even been around that long.
    Therefore, I hope that the final report clearly explains 
the inherent bias in the methodology and clearly spells out the 
limitations of the data. I would not want the chairman, or any 
member of the committee, or any reader, to be misled on this 
subject again.
    Mr. Chairman, I would like to explore the reasons for delay 
for a little while.
    You testified that a major factor was, the Superfund 
program started with a backlog of sites awaiting evaluation. 
That's a quote. Correct? Now, let's say, hypothetically, there 
is a huge backlog of sites because previous administrations had 
neglected the program, and, again, hypothetically, a new 
administration aggressively and successfully attacks this 
backlog by finally finishing up those long, drawn out listings 
and cleanups.
    Would the results of your analysis show that the cleanups 
completed by this new administration were actually taking 
longer than cleanups completed by previous neglectful 
administrations?
    Mr. Guerrero. The average, based on our analysis, would 
rise because it takes into account the backlog. However, that 
is not the only approach that we used in our analysis.
    Mr. Sanders. One more time, I think the point that we're 
trying to make is that the information provided does not 
necessarily reflect the reality of what is taking place and the 
efforts of the Clinton administration to improve upon the 
situation.
    Mr. Chairman, let me just ask a few more questions, and 
thank you for your indulgence here.
    I would ask GAO what recommendations they are making today 
for fixing the problems related to delay.
    Mr. Guerrero. We are not making any formal recommendations 
in our testimony, nor do we anticipate making recommendations 
in our final report. I would make several observations, 
however. And I would like to speak to the methodology, because 
I think it's important to note that the methodology does show 
some very, very important things.
    Among those is the fact that the timeframes spent within 
specific parts of the Superfund cleanup process are changing. 
Certain parts are getting longer; other portions may be 
remaining the same. In effect, as I said earlier, this is a 
result of a number of decisions to emphasize the tail end of 
the process or the cleanups. It is robbing Peter to pay Paul 
and, in effect, will be shown in even higher average times in 
the future.
    We feel very strongly, and we have made recommendations, 
that because of the size of the backlog in this program, which 
it began with, because of the large number of sites yet to be 
listed, and because of the large number of sites in the 
pipeline, it is imperative that we use a risk-based approach to 
manage this process and ensure that the worst sites are getting 
addressed first.
    That's something we have recommended in the past and we are 
recommending today before Chairman Horn's subcommittee in our 
high risk reports. We feel even stronger about it based on the 
analysis we've done here. This is a program where results are 
important, and we have not been convinced in the past that the 
agency has used that type of approach.
    Mr. Sanders. My time has expired. I would just, with the 
chairman's indulgence, take a brief moment to ask you this: 
Would you recommend the reforms implemented by the EPA in the 
last few years?
    Mr. Guerrero. The reforms that the agency has put in place 
all have potential to achieve what the agency is setting out to 
do, which is reducing timeframes and reducing costs.
    Mr. Sanders. You see these in a positive light.
    Mr. Guerrero. We see them in a positive light. I think 
where the debate has been this morning is, how can you measure 
that, and how can you show those kinds of examples.
    Mr. Sanders. I appreciate that. Honest people can disagree. 
It's a complicated issue. But what I'm hearing you say is that 
the changes and the reforms implemented in recent years are 
positive. That is what you're saying; is that correct?
    Mr. Guerrero. They are headed in the right direction. 
Whether they are having the impact is the question we have been 
talking about.
    Mr. Czerwinski. Mr. Sanders, I think the key word is 
``implemented.'' We are not sure how extensively they are being 
implemented, and we are undergoing studies at the request of 
this committee, the authorizing and appropriations committees 
to see the exact extent of EPA's implementation.
    Mr. Sanders. I do appreciate it. What you are saying--
again, I don't want to put words in your mouth--but you are 
saying you like the reforms; you see them moving in the right 
direction; you are concerned about the implementation.
    Mr. Czerwinski. We see the concepts as being very positive; 
the results have yet to be proven.
    Mr. Sanders. OK. My last question, Mr. Chairman, is a very 
simple one for the members up there. In order to better 
implement those processes, would you recommend that Congress 
appropriate more funds?
    Mr. Guerrero. Again, I would say that, going back to the 
earlier discussions, you can always put more funds into this 
program, and you will probably get more output. The question 
is, are you getting the right kind of output? And whatever that 
funding level is, we would continue to strongly urge that the 
agency use a risk-based approach to ensure it is addressing the 
worst sites.
    Mr. Sanders. My time has expired. I thank you very much, 
Mr. Chairman.
    Mr. McIntosh. Thank you very much, Mr. Sanders.
    Let me turn now to Representative Barr who has a couple 
questions for this panel.
    Mr. Barr. Thank you, Mr. Chairman. Is it a fair assessment, 
Mr. Guerrero, of GAO's role, not just in your testimony here 
today but in general, that GAO uses commonly accepted, 
defensible, verifiable, legitimate means of computing data as 
objectively as possible, and then makes the results of that 
analysis available to Members of Congress and others in the 
executive branch, and that it's not your job to draw, 
necessarily, conclusions from it, with regard to how it can be 
used in determining policies?
    Mr. Guerrero. That's right. We will, on occasion make 
recommendations, when we believe the evidence is compelling. In 
this particular case, we are simply trying to present data that 
suggests a troubling picture.
    Mr. Barr. Would it be fair to say that, from time to time, 
Members of Congress on both sides of the aisle and members of 
the executive branch disagree with what you have done, and may 
reach different conclusions based on the evidence?
    Mr. Guerrero. Absolutely.
    Mr. Barr. Without beating a horse here, again, about 
methodologies, is it a fair statement, based on your objective 
analysis, as reflected in your testimony today, that the 
average completion time for projects has increased 
substantially over the last several years?
    Mr. Guerrero. Yes.
    Mr. Barr. Is there any doubt in your mind about that?
    Mr. Guerrero. No.
    Mr. Barr. Is that based on an objective analysis according 
to commonly accepted standards and methodologies of analysis?
    Mr. Guerrero. Yes.
    Mr. Barr. Thank you, Mr. Chairman.
    Mr. McIntosh. Thank you, Mr. Barr.
    Let me conclude this panel by summarizing some of the 
important things that have, indeed, come out. And I think as 
much as we may dislike the results, I don't think it's 
appropriate to be attacking the method when you don't like the 
results, when the facts are staring you right there in the 
face.
    It is a fact that, in 1996, it has taken 20 years, on 
average, to clean up the sites that were finished there, and 
that your study showed that, in that year, that is the case for 
those sites. That's an appallingly long time and not acceptable 
for us.
    It also appears that the reforms which began being 
implemented in 1992 and were fully implemented in 1994, and 
additional reforms in 1995 and 1996, don't seem to have slowed 
down the increase in time it takes to list a site onto the 
National Priority List. That number continues to climb every 
year since 1992 by roughly the same amount.
    Finally, it appears to us that 53 percent of the money that 
is spent on this program is used for bureaucratic expenses, and 
47 percent is used for real cleanup; and that, when we're being 
asked whether we should spend more money or not in the program, 
the first question should be asked, are we using the money that 
is already there appropriately to get the maximum amount of 
cleanups for the taxpayer money that is being spent. I think 
the answer to that is a very clear no.
    I appreciate the effort that you have brought forth in 
bringing out these facts. I understand, when people disagree 
with facts or they don't agree with their agenda, that they may 
attack your methods. But I think you've got very sound methods 
behind this report, and I look forward to seeing the completed 
work product presented to our committee.
    Thank you.
    Our next panel is a colleague of ours who has done a lot of 
work in this area, has become somewhat of an expert, and I am 
very much pleased to now recognize the Representative from 
Florida, Mr. John Mica.

 STATEMENT OF HON. JOHN L. MICA, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF FLORIDA

    Mr. Mica. Thank you, Mr. Chairman. I thank you for your 
leadership on this issue and for again tackling some of the 
environmental cleanup that is so important to our country, our 
children and our communities.
    I am pleased to see Mr. Sanders has joined the panel as a 
ranking member. They have not only recognized his seniority but 
also his expertise. He also is someone with whom I've served, 
and I know his true compassion to see that the environment is 
protected and that those that, indeed, are the least fortunate 
in our society are not victimized by Government inaction, 
particularly in hazardous waste cleanup sites.
    I come to you today having served on a similar panel back 
in my first term, served among leaders of the Congress like Mr. 
Synar, who is not with us, rest his soul, and Mr. Towns, and 
others. We looked at these issues. Mr. Chairman and members of 
the panel, I tell you, I've been there and I've heard before 
what EPA and GAO are telling us today.
    It continues to concern me that we, in fact, are now--and 
this report confirms--taking a longer time to clean up sites; 
in fact, that the only ones that are ``cleaning up'' in some of 
this process are the attorneys and the people conducting 
studies--expensive studies--and that the sites are not being 
cleaned up.
    Again, this confirms previous GAO findings, other 
subcommittee and committee findings of Congress. We all want to 
get to the same place, and that is cleaning up the sites that 
pose the most risk to our communities and to our children. 
Where have we come? I don't think we've come very far.
    I am here to suggest today a couple of steps. One, I think 
we need to start turning more and more of this responsibility 
over to States. It's easy to criticize the Federal Government, 
and their record is obvious, but we should look at what the 
States are doing and their initiatives. I think, if you 
analyzed it and your subcommittee analyzed it, you will find 
some of the cleanup sites that EPA is taking credit for 
actually have been State and local initiatives that have 
resolved these situations.
    Let me give two examples. In Pennsylvania where our 
colleague, Mr. Ridge, became Governor 2 short years ago, he has 
cleaned up 13 brownfields sites in just 1 year at a cost of 
$711,000. As you may recall, last fall EPA planned to host a 
brownfields conference in Pittsburgh at a cost that was, at 
that time, estimated to be $729,000. So they were going to 
spend the money for a conference. I think they revised that 
down to half a million, after hearing some congressional 
protests.
    Here's an example of a State cleaning up brownfields sites 
at a cost of $711,000, as opposed to spending it on a get 
together to talk about it.
    Minnesota is another good example. Minnesota has a 
voluntary investigations and compliance program. I heard a 
speaker say recently, in fact, just within the last week, that 
Minnesota has cleaned up more sites than the entire Federal 
Government Superfund program. This State permits innocent 
developers and others to clean up contaminated land in return 
for a legal shield against future liability. The ultimate goal 
is, in fact, cleaning up these sites and not, again, becoming 
involved in a legal morass.
    In my own State of Florida, we had one site we looked at 
that had a project manager almost every other year. They had so 
many project managers that, in fact, the project managers left, 
became consultants to this process and were further studying 
the hazardous wastesites. So we see that the Federal approach 
hasn't worked. We see good examples of where the State 
approaches are working.
    Now, there are a couple of other recommendations other than 
turning some of this over to the States and locals who can act 
a little bit more expeditiously. First of all, we've got to use 
cost-benefit and risk assessment. You heard the EPA talking 
about the use of risk assessment. What disturbs me is that we 
see the same problem. Remedy selection doesn't use risk 
assessment. It is important that we look for the most cost-
effective solutions for cleanup.
    And we heard this before. Another GAO report that was 
presented to us just months ago said that the sites that are 
cleaned up under these Federal programs are not the sites that 
pose the most risk to human health and safety, nor do they 
address the poor in the community. That problem still has not 
been addressed. So some risk assessment should be used in 
priority selection of the sites.
    Then addressing, finally, the question of retroactive 
liability, EPA continues to let polluters not pay and then come 
back to us and ask for more money from the taxpayers. The 
original intent was good: have polluters pay, have polluters 
clean up. This has been distorted. Over $4 billion, according 
to EPA Watch, has been lost because EPA did not pursue these 
folks and let the statute of limitations expire.
    So we've got a problem that still exists. It requires our 
oversight and our staying on EPA to make this program work. And 
we need to look at other effective solutions that States are 
adopting to clean these sites up that pose the most risk to our 
communities and our children.
    I thank you for the opportunity to be here. I was hoping 
that I would come before your subcommittee and all the sites 
would have been cleaned up by now, and we could have had a 
meeting of celebration, but that's not the case. Again, thank 
you all for your leadership on this issue.
    Mr. McIntosh. Thank you, Mr. Mica. Hopefully, we can 
perhaps get some reforms and continue to further implement the 
reforms the agency has put into place, and achieve a record 
somewhat like Governor Ridge's, where you actually get the job 
done at relatively little expense.
    I have no questions for Mr. Mica.
    Mr. Sanders.
    Mr. Sanders. I would just say a few words. First of all, 
John, thank you very much for your kind remarks. As you know, 
there are disagreements about some of the conclusions that 
you've reached and the chairman has reached. It is not 
necessarily agreed by everybody that the process now has slowed 
down. There is difference of opinion about the methodology used 
by the GAO.
    Second of all, I'm sure you will agree that while we all 
want flexibility, we want to learn from everybody involved in 
the process, and that we all agree some States have done an 
excellent job, you will not disagree that some States have done 
an atrocious and neglectful job. That is my assessment.
    I think we can all share the common goal of getting these 
sites cleaned up as quickly as possible and as cost-effectively 
as possible. Thanks for your contribution.
    Mr. Mica. Thank you. I look forward to working with you in 
that regard.
    Thank you, Mr. Chairman.
    Mr. McIntosh. Thank you very much, Mr. Mica.
    Mr. Sanders, I propose we take a 10-minute recess to go 
vote and come back.
    The committee will stand in recess.
    [Recess.]
    Mr. McIntosh. The subcommittee will reconvene and come to 
order.
    Let's proceed now to our final panelists of the day. I 
appreciate both Mr. Wholey and Ms. Klemm for coming forward and 
talking. Now, I understand that GAO and administration 
witnesses are not covered by House Rule XI, obviously, but Ms. 
Klemm would be. And it is my understanding that you do, in 
fact, receive some Federal funds, and I am also told that you 
will provide the subcommittee with a written record of all 
Federal grants, subgrants, contracts, and subcontracts that you 
receive.
    Why don't we first proceed to swearing everybody in, and 
then I've just got a couple questions for you along those 
lines. If both witnesses would please rise.
    [Witnesses sworn.]
    Mr. McIntosh. Let the record show that both witnesses 
answered in the affirmative.
    Ms. Klemm, just to make sure we understand the facts 
correctly, so that the record will be clear, do you receive 
some Federal grants?
    Ms. Klemm. Yes.
    Mr. McIntosh. Could you summarize those grants by the 
amount and type they are?
    Ms. Klemm. I called my office to get some information so 
that I can at least have some response. First, let me say that 
none of the money that I, as the owner of Klemm Analysis Group, 
or the organization, have received has ever come from EPA.
    The largest contracts we have with the Federal Government, 
and this is over the past 10 years, are with the Centers for 
Disease Control and Prevention. We have a task order contract 
that is in its 5th year, and the total of that, to date, has 
been slightly over $7 million. It was signed in 1992.
    We also, last year, received one of the Presidential 
Advisory Panel awards for Gulf war illnesses, which is through 
Fort Detrick, Department of Defense. That is for $778,000 and 
is a multiyear contract awarded last June.
    We have been working for the Substance Abuse and Mental 
Health Services Administration since September 1991. The amount 
of that contract at the time of award, and it has remained at 
the same amount, is about $1.5 million. It is still ongoing.
    We have a project with the Department of Veterans Affairs 
to study women who served in the Vietnam era. The second phase 
of that study is ongoing now and is for $1.3 million.
    Mr. McIntosh. Ms. Klemm, if you would like to just go 
ahead, we can put all of that into the record.
    Ms. Klemm. OK. Fine. I thought you wanted me actually to go 
through those.
    Mr. McIntosh. I did ask that, and you were very kind to 
proceed. But in order to get to your testimony, we can do that, 
and we do look forward to seeing the full list.
    Ms. Klemm. OK.
    Mr. McIntosh. Let me emphasize, just for the record, that 
our effort here is not to create a trap for people in any way 
but really just to comply with the spirit of this new rule in 
the House. So I think your best efforts, in terms of 
disclosure, which you have done admirably, is great, and I 
thank you for that. We can submit the rest of the list and 
update it further later on.
    Ms. Klemm. OK. Great. That's fine.
    Mr. McIntosh. Thank you.
    Let's turn now to Ms. Klemm, if you could give us your 
testimony.

 STATEMENTS OF REBECCA J. KLEMM, PH.D., KLEMM ANALYSIS GROUP; 
 AND JAMES WHOLEY, SENIOR ADVISOR FOR EVALUATION METHODOLOGY, 
                   GENERAL ACCOUNTING OFFICE

    Ms. Klemm. Mr. Chairman, I have a written statement which I 
ask that you include in the record of this hearing, and I will 
briefly summarize my views and then answer any questions you 
might have.
    Mr. McIntosh. We will include the full statement.
    Ms. Klemm. OK. My name is Rebecca Klemm. I am the president 
of Klemm Analysis Group here in Washington, DC. It is a 
statistical research and analysis company that has done a large 
number of studies assessing statistical work and performing 
analysis for both Government and commercial clients.
    I have served as a court-appointed expert witness on 
statistical evidence and am currently a member of the National 
Conference of Lawyers and Scientists of the Association for the 
Advancement of Science and the American Bar Association Science 
and Technology Section. I earned my Ph.D. in statistics from 
the Iowa State University and have served on the faculty of 
Georgetown University and Temple University, where I taught 
statistics. I am also past president of the Society of Risk 
Analysis, the Washington, DC, chapter.
    I am not an expert on the Superfund and, in fact, have 
never done any work for the EPA. I am here today because 
Congressman Waxman asked me to look at the methods used by GAO 
in the work they are reporting and did report in their 
testimony today. I have only seen their testimony and I heard 
it today, and have not had the opportunity to review the data 
in detail that they used. However, reading their testimony and 
hearing today, I believe that I can make some suggestions that 
would be helpful to their analysis and the work of this 
subcommittee.
    The GAO's work reports their estimates of the time that it 
takes to list a hazardous site after it is discovered and to 
clean it up after it is listed. The issue is whether the 
procedure they used to make their estimates is the most useful 
one.
    One issue is that GAO only looks at the sites that were 
listed. If a site was discovered but not listed, it does not 
come into their calculations of the average time. We do not 
really know the effect of this on the results. It could be that 
sites which are not listed are quickly decided, or it could be 
that because they are less of a problem, EPA takes longer to 
get to them. But they are not included.
    Another issue is that GAO calculates time by averaging the 
time it took for cases closed in a particular year, and we have 
heard a lot of discussion about this. They look at the year 
that it is closed and how long it took to get to this, looking 
backward.
    Because the law was passed in 1980, there were fewer years 
available in the earlier period. So, in 1982, there were only 2 
years since the law was passed. It is a bit uncertain as to 
what the discovery dates for the early cases were. In other 
words, the further out you get from 1980, the more years appear 
to be available for being included in the average.
    If we calculate the number the other way, that is to say, 
examining cases discovered in a particular year, going forward, 
the problem is presented in mirror image. There are fewer years 
available for averaging in the later time period. So it is not 
at all surprising that these two methods get different results, 
and we have heard about results from both kinds of methods 
today.
    Another issue is how GAO treats severity or complexity of a 
site. It could be that time to completion is influenced by how 
serious the hazard is, but there is no analysis of this 
presented. During panel one, there was discussion about the 
various locations of sites, and that they tend to be more 
complex because of the various locations or operational groups, 
and that they do tend to take more time. I think that should be 
included in the analysis.
    It is important for this work to specify how we are going 
to use these results; specifically, what we are going to 
compare the result to. In fact, the Superfund determinations 
involve many decisions and reviews. To get a good idea of what 
is going on, we need to include information about all of these 
decisions, even those pending. An analysis of ``time to 
decision'' or oftentimes called ``events-based analysis'' must 
include information about all decisions made and those that are 
pending.
    In this situation, that includes all decisions about all 
discovered sites, as well as separate locations of an original 
single site. We need to look at the entire process, as was 
mentioned by the second panel and the first panel about the 
complexity. I agree with including those issues into the 
analysis.
    Mr. Chairman, after that short statement, I would be happy 
to answer any questions.
    [The prepared statement of Ms. Klemm follows:]
    [GRAPHIC] [TIFF OMITTED] T1517.114
    
    [GRAPHIC] [TIFF OMITTED] T1517.115
    
    Mr. McIntosh. Thank you very much, Ms. Klemm.
    Mr. Wholey, would you please share with us your testimony.
    Mr. Wholey. Mr. Chairman, my name is Joseph S. Wholey. I am 
a professor of public administration at the University of 
Southern California and senior advisor for the evaluation 
methodology at the GAO. My work focuses on the use of 
performance measurement and evaluation to improve Government 
performance and policy decisionmaking.
    I don't have a prepared statement. I would be happy to 
respond to any questions that you may have.
    Mr. McIntosh. Thank you very much. Let me just ask you, I 
guess as the first question, do you agree with Ms. Klemm's 
comments on the study that was presented today.
    Mr. Wholey. Mr. Chairman, I agree with the thought that 
there is no perfect measurement system, if that was part of Dr. 
Klemm's testimony. I think that we are always trying to weigh 
the feasibility and cost of different measures against the 
usefulness of the measures, which certainly was part of Dr. 
Klemm's testimony.
    GAO, in my view, has used a reasonable, appropriate 
measurement scheme in its analysis. Other measures might also 
be appropriate. I could expand slightly, if you wish.
    Mr. McIntosh. Yes, that would be great.
    Mr. Wholey. In my view, and this is what I would hope to 
see coming out of the hearing today, the key to useful 
performance measurement is, first, to get some agreement 
between the agency and the Congress on a set of goals that we 
are working toward, and then for each goal, a reasonably small 
set of measures that will let us know if we are making progress 
or not.
    A lot of time has been spent today on two of the goals of 
the Superfund, which might be called timely listing and timely 
completion, but the Superfund program has many goals. So the 
first step is to try to come together on what are the goals; 
what are we trying to accomplish around here? We heard about 
risk toward the end, I guess the next to the last panel, as you 
would classify it, or perhaps the last panel.
    So the point, though, as Dr. Klemm had to say, is that we 
have to think about the use of the information. Is this 
performance information going to help manage the program 
better, help the program to perform better, help inform the 
Congress better as to what is happening in the program, help in 
your own decisionmaking process?
    Mr. McIntosh. Now, GAO mentioned in its testimony that 
there were alternative means of analyzing the data that 
confirmed the results they achieved with the method they chose. 
Are you familiar with those?
    Mr. Wholey. Well, I had seen some draft versions of their 
testimony for today, and over the last several days made some 
suggestions. I looked at the statutory deadlines for listing in 
SARA. I looked at the expectations that EPA had set for cleanup 
of sites in SARA.
    Some supplementary analyses were done of a prospective 
nature, talking about the percent of time that those deadlines 
or expectations were being met. That is a prospective 
methodology that is included in the testimony that was given 
earlier today. Unfortunately, I was not in the room, but I have 
read the testimony that was given earlier today and submitted 
to you.
    Mr. McIntosh. Wouldn't you say, if the goal is to quickly 
clean up the sites and reduce the risk to the environment and 
health, that a measurement of the length of time it takes to 
clean them up would be important in determining whether you 
meet that goal?
    Mr. Wholey. Well, as I said before, Mr. Chairman, I think 
there will typically be more than one appropriate measure. I 
think the measure you just mentioned, looking backward in time, 
is one appropriate measure. I think the percent of cases that 
are completed within some reasonable standard is another 
appropriate measure. And I have no doubt that there might be 
two or three other appropriate measures.
    The worry, if we just keep adding more and more measures, 
however, is, how is the reader or the listener to process it 
all. That's why I say, for each goal, a few measures, and if 
possible, an agreement between Congress and the agency to use 
these measures and report back, in a consistent fashion, what 
is happening in terms of those measure for each goal.
    Mr. McIntosh. Thank you.
    Ms. Klemm, would you say there are multiple measures, as 
well, and that it depends on the goal as to which measure you 
look at?
    Ms. Klemm. Yes, basically. There are multiple measures. One 
can do retrospective measures, as GAO primarily does. One can 
do prospective measures, which some analysts call those 
cohorts. I think they all have value for presenting something 
about what is going on.
    I do think, in some of the questions that were raised today 
about backlog and concern about backlog, that the more one 
looks retrospectively, the more the effect of the backlog can 
come into play. Particularly, if there is interest in backlog 
that has been reoccurring or preexisting across different 
administrations, then I think that information should be 
augmented and brought forward; if, in fact, one is to 
ultimately have a goal to understand how the length of time 
relates to what we can do to shorten it.
    I think we all agree we want to maybe shorten anything that 
has a public health implication and environment implication. 
Just providing information or average of time to get to where 
we are, where, in fact, there could have been a hiatus, we 
don't know even, that things were stopped, doesn't really help 
to know what we can do to shorten the gap in the future.
    Mr. McIntosh. But it would, if you demonstrated there was a 
lengthening of time, alert you to a problem, if your goal is to 
have rapid cleanup.
    Ms. Klemm. I do believe that looking only retrospectively 
will not tell you whether it is really lengthened, because it 
could be an artifact of the fact that you actually have 
calendar time that has gone forward, and you could be just 
measuring the length of more available calendar time and not 
necessarily due to the lengthening of the time to do the actual 
activity.
    Mr. McIntosh. But if you have, as we do there with those 
slopes, where it continually takes a longer and longer amount 
of time to put a site onto the listing, and then that triggers 
another 10-year period of actual cleanup, it appears that each 
year, as you add a new site to that, it looks as if you are 
going to, if history repeats itself, have a longer and longer 
period before you can expect the cleanup to occur.
    Ms. Klemm. It could, because you have more time that has 
elapsed. In the same kind of situation, let's suppose--I think 
on the chart that's on the left over there, is it 1986, the 
first year?
    Mr. McIntosh. Yes.
    Ms. Klemm. There has only been 6 years from 1980 at that 
time. If, in fact--and I don't know whether this is true or 
not--but if, in fact, the easy cases were completed, they were 
completed right away. If the difficult or the multiple 
locationsites were kept partially completed, we don't even know 
that, but they keep going on. If they are still in the 
pipeline, partly because they are more complicated and they 
themselves take more time, they are going to show up, by the 
date when they were completed, looking as if it took longer to 
complete them.
    Now, this is a flow process. There are new ones coming in 
every year, and there are ones getting completed every year. 
The tradeoff between the incoming new cases and the completed 
old cases aren't being told in that kind of a chart. It leaves 
out the impact of the original backlog. You can't see that. And 
you could get into that information if we were to look at when 
were they actually started on discovery and where were they at 
the beginning of each year? Had they even been begun? Were they 
in process? Were they partially completed? And so on.
    I think that level needs to be looked at, and that's what I 
mean by more of the events-based. What is pending? Have they 
even been started? Because you could have the easier ones done 
first, like a lot of us do with a lot of our tasks when we are 
confronted with a choice of things to do, get some done, then 
you will look like you do them quickly, and the hard ones are 
still remaining. And somebody who then actually solves the hard 
ones might look like they took a long time.
    Mr. McIntosh. So, in order to fully understand that, you 
would want to break it down into different components, is that 
what I am hearing?
    Ms. Klemm. Yes, that's correct.
    Mr. McIntosh. If one of the components was pretty 
consistent in taking, say, 2, 2\1/2\ years, and another 
component you saw a significant fluctuation over time, then you 
would be more concerned about that component that fluctuated 
over time?
    Ms. Klemm. I would certainly want to look at it and 
understand why. This chart is too combined. We can't really, to 
me, use it for understanding what we might do and deciding 
whether, in fact, it really has taken more time, and then what 
we can do to shorten it if it has.
    Mr. McIntosh. Then one of the things I think would be 
useful would be, as GAO moves to a final report, is to break 
out different subsets of that overall time and let us see which 
ones seem to have been expanding and the amount of time they 
take.
    Ms. Klemm. Yes. That's a recommendation that I would make.
    Mr. McIntosh. My hunch is, you are going to find that sort 
of the final stages of action, where they are really cleaning 
up, have roughly about the same amount of time for them, but 
the preparatory stages have been what has been expanding. But 
we need to see.
    Ms. Klemm. It may very well be. I don't know.
    Mr. McIntosh. Which, I agree with you, would then tell 
you--that might be the source of reform, an area to look at to 
try to reform those stages which have been expanding.
    Thank you very much. I have no further questions.
    Mr. Waxman.
    Mr. Waxman. Thank you, Mr. Chairman.
    I want to thank both of you for being willing to stay this 
long day and to give us your views on this issue.
    Mr. Wholey, you work for the GAO, and you have had a chance 
to review their methodology and their conclusions.
    Mr. Wholey. That's correct.
    Mr. Waxman. The chairman repeated something that he had 
said earlier, that GAO found that it will take 20 years to 
clean up a site discovered today. Is that GAO's conclusion?
    Mr. Wholey. Having heard GAO say no, I feel confident in 
saying no. I did come to the hearing about noon, however. I 
have not been here for the whole morning.
    Mr. Waxman. Mr. Guerrero is here, if I'm saying something 
incorrectly.
    Mr. Wholey. He did say no.
    Mr. Waxman. I did not understand GAO to say that.
    Mr. Wholey. I heard him say no.
    Mr. Waxman. OK. Then I further understood that GAO did not 
make a determination that the reforms that have been put into 
place in the Superfund programs have been unsuccessful or 
successful. The chairman indicated he thought GAO has concluded 
that the reforms were unsuccessful.
    Mr. Wholey. Mr. Waxman, if I could respond in general to 
your question.
    Mr. Waxman. Sure.
    Mr. Wholey. Because I would like to refer, again, to the 
testimony that was given on my left a little while ago, which I 
thought was helpful to getting us somewhere here. It occurred 
to me, in reading over the testimony and also in listening to 
Dr. Klemm, that the idea of adding in some intermediate 
measurement points, which the chairman has also been talking 
about, a couple that I noted down were what proportion of the 
cases are we reaching a reasonable--within a reasonable time, 
are we at least selecting a remedy, that would be one.
    Further on down, at a quite later stage, within what 
proportion of the time are we at least initiating the cleanup 
action. So apparently EPA, at one point, perhaps they were a 
little too enthusiastic, had suggested that after the site was 
a listed that a good standard would be to get it cleaned up in 
5 years. As I now understand it, just from reading the GAO 
testimony, which you have heard, they now think that perhaps a 
reasonable standard would be to clean the sites within 7 or 8 
years from the time of listing.
    Then I would wonder, couldn't we have--it's sort of like a 
set of milestones--have they at least selected a remedy.
    Mr. Waxman. Well, I think what you are saying.
    Mr. Wholey. Could I finish my response to you?
    Mr. Waxman. Yes. Well, you're not really responding to my 
question, but I will let you finish, because you are being very 
instructive. But my question to you was, did GAO say they had 
enough information to judge that the reforms were a failure?
    Mr. Wholey. I appreciate your reminding me of the question, 
because I might have missed responding to the question in my 
enthusiasm to outline, but it is responsive, however.
    If the reforms are working successfully, and if we had 
standards or rough time estimates by which we would try to 
complete the different stages in a cleanup, then we would 
expect to see movement in a favorable direction on the 
proportion of sites listed for which we get the remedy selected 
in a reasonable time. That will be sensitive measure. You don't 
have to wait for the whole cleanup.
    We would also expect to see favorable movement in the 
proportion of the sites, once listed, for which we have begun 
the cleanup in a reasonable time. Then, finally, we would have 
the proportion of the sites for which they did the cleanup in a 
reasonable time.
    So I think it would be possible to introduce a more 
sensitive measurement system into the game that would have a 
chance to pick up the effect of the reforms of 1992 and 1994.
    Mr. Waxman. Right. And then we would know whether they have 
succeeded or not.
    Mr. Wholey. Well, we wouldn't know.
    Mr. Waxman. We would have some idea of whether they are 
moving in the right direction.
    Mr. Wholey. Yes, we would.
    Mr. Waxman. Look, what is happening at this hearing is a 
GAO draft report that is being rushed to a congressional 
subcommittee. Now, that's very unusual, because usually you 
wait until there is a final report, because a draft report 
means that GAO is still getting input and evaluating the issue.
    GAO has a draft report, and that draft report can be used 
for a political agenda. And the political agenda is to make a 
statement like, ``It will take 20 years before a Superfund site 
that is listed today ever gets cleaned up.'' That's a political 
statement, not a statement of reality. Or, ``The reforms have 
failed.'' That's not a statement that gives us an analysis of 
what's happening; it's a statement that can be used for a 
political point of view.
    Now, if we want to evaluate what's really going on, we 
have, as both of you pointed out, measurements to make, points 
to evaluate. We have to look at the kind of cleanup that's 
involved, whether it's a complex cleanup or a simple cleanup.
    That gets me to the point that I wanted to pursue with you, 
Dr. Klemm. Some Superfund sites, like an oil spill, are 
relatively simple to clean up. I say ``simple,'' relatively 
speaking, but for some the techniques for cleanup are known and 
the extent of damage is limited. At other sites, damage is 
widespread, varies across the terrain, and the best technique 
for cleanups are unknown. Clearly, these sites will have quite 
different cleanup times.
    Now, the GAO, in calculating averages, ignores the 
characteristic of the site. Is that appropriate? I think you 
would agree it is not, but I would like you to give your answer 
to it. Is it helpful?
    Ms. Klemm. I don't think it's particularly helpful for 
understanding whether improvement is being made and in 
understanding, from a management and decisionmaking point of 
view, whether, in fact, there is something that can be done to 
shift resources, or whatever. You need to look at the parts and 
the complexity of the sites and/or their multiple locations.
    We have heard already today from individuals who have the 
kind of technology to do cleanup that that does affect the 
length of time. Since length of time, by people who seem to 
know about those things, does potentially relate to the 
complexity, then we should look at that, the types of cleanup 
required, and break out by those characteristics into subgroups 
to see whether, in fact, there are some of them that are 
generating what on the surface might look like very lengthy 
cleanup times, and they are the most complex, possibly.
    Mr. Waxman. Well, the GAO has disagreed with its own advice 
when it came to the drug approval evaluation, where they said 
that measurement shouldn't be based on the time of completion; 
it's less appropriate than one based on time starting from the 
origin of the approval process. But in this report they seem to 
think that--because both are flawed, and you indicated clearly 
that both are flawed, they give you a different measurement--
they are free to choose whichever suits their purpose.
    This is not the only subject where people want to look at 
the change in the duration of something over time. Some 
scholars studying poverty measure how long people are poor. 
Others measure spells of unemployment. Do any of these other 
disciplines use the kind of average used by GAO today in their 
report? How do these scholars measure and compare durations?
    Ms. Klemm. The issues that are being addressed here, in 
terms of time to clean up, are not unique to this application 
or this particular kind of a problem. Analyzing time to an 
event along a continuum of a process occurs in lots of places. 
How to handle those is not unique here.
    The issue where you have a starting point and you have a 
truncated history is a very important concept to keep in mind, 
because the initial conditions, as some people might call them, 
can play a lingering effect into the future. So understanding 
what the backlog is, or initial conditions, or where you start, 
it is important to continue that into the analysis into the 
future.
    That's where looking at events-based analysis, which in 
some areas they call survival analysis or proportional hazards 
analysis, allows you to watch the dropoff over each of the 
events from whence you started, taking into consideration the 
truncation at the beginning, with a backlog, location in time, 
and the truncation at the new end, which happens if you follow 
just a cohort. Those things are available as procedures and are 
used in lots of areas, having, I guess, originally been 
developed in biological and economic applications.
    Mr. Waxman. Mr. Wholey, let me ask you this question. You 
recommend that an index of site complexity should be developed, 
and I think that's a very useful suggestion. But let's suppose 
for the moment that 1 year EPA spent all of its resources 
cleaning up simple sites, and the average cleanup time, using 
the GAO method, was 2 years. Then the next year they focus on 
finishing a few complicated sites, and the average is 3 years, 
again using the GAO method.
    Would it be reasonable to conclude from those numbers that 
cleanup is taking longer?
    Mr. Wholey. Mr. Chairman--I'm sorry--Mr. Ranking Member.
    Mr. Waxman. Call me Waxman. Call me Henry. Whatever.
    Mr. Wholey. Mr. Waxman. I wouldn't call you Henry, but I 
would call you Mr. Waxman. Mr. Waxman, I think it would be 
valuable to include both averages for the total cases in the 
report and also averages for subgroups, such as easy sites, 
average sites, and more difficult sites.
    Mr. Waxman. You are saying what would be appropriate, but 
would it be reasonable to conclude?
    Mr. Wholey. Mr. Waxman, could I respond to your question?
    Mr. Waxman. No, because I want you to answer my question.
    Mr. McIntosh. Mr. Waxman, let the gentleman answer. If you 
don't interrupt him, he would be able to answer.
    Mr. Waxman. I don't want to interrupt you except, at some 
point, the chairman is going to say, enough time. The question 
I asked you, given that hypothetical, would it be reasonable to 
say, when they have spent a short period of time on the easy 
ones and a longer period of time, on average, on the more 
complicated ones, that therefore they are taking a longer time 
overall to clean up sites? That doesn't sound reasonable to me. 
Does it sound reasonable to you?
    Mr. Wholey. Would you like me to respond to your question, 
Mr. Waxman?
    Mr. Waxman. As long as you've got my question clearly in 
mind, go ahead.
    Mr. Wholey. I do. Right. Thank you for reminding me of the 
question.
    Mr. Waxman, if the average cleanup took 2 years for one 
group, one time, and the average cleanup took 3 years another 
time, most people would say that 3 is bigger than 2.
    Mr. Waxman, to continue my response, it would be most 
valuable for everybody to have a breakdown that would clearly 
reveal for all, which is the point you're getting at, that the 
two had been for easy sites, and therefore one shouldn't think 
that the three, which was, by definition, for more difficult 
sites, nobody should say that three was performing worse than 
two, because the degree of difficulty of the task had been 
obviously changed over that time.
    Mr. Waxman. Well, again, to follow on this kind of logic, 
if we have simple and complex sites, let's assume we can know 
how long it should take to clean up a site and that EPA is 
meeting that expectation in every case. Now, 1 year they finish 
10 simple sites that average 2 years, and then they have 5 
complex sites that average 5 years. The GAO has calculated 
averages today that would say this is an average of 3 years.
    Would it be a fair evaluation of EPA to say that they were 
taking too long to clean up simple sites?
    Mr. Wholey. If I may respond, Mr. Waxman, it is the case 
that GAO has calculated year by year in as much detail as Mr. 
Waxman would wish.
    Mr. Waxman. As I would wish?
    Mr. Wholey. Yes, what time it had taken. For the purpose of 
summary testimony, GAO has averaged different years together, 
but there is no doubt that the calculations were made, say, for 
1986, for 1987, 1988, 1989, 1990, 1991, and so forth, and all 
of those numbers are available, as well.
    To come back to a point that you made earlier, Mr. Waxman, 
which appeared to be directed to GAO, could I respond to that 
point?
    Mr. Waxman. Yes.
    Mr. Wholey. You suggested that, at certain points, when GAO 
testified on uncompleted work, somehow or other GAO was rushing 
to testify.
    Mr. Waxman. No, no. Excuse me. I didn't say that GAO was 
rushing to testify. I think the chairman of the subcommittee 
was rushing to have GAO testify because he had a report that 
would fit in with a preconceived notion of his evaluation of 
the Superfund program.
    After all, this report says, if one looks at it only 
briefly or quickly, it's just taking a longer time for EPA to 
do the job of cleaning up the Superfund sites. That would seem 
to most people to say, ``By God, here we've got a Superfund 
program, and it's taking longer for them to do the job.'' That 
would presume that years ago they were doing a better job, 
because they were doing it faster, and now, with those Clinton 
people in office, it's taking them longer.
    So ordinarily we wouldn't have a hearing on a report until 
it was in final form, but the GAO report, in draft form, is now 
brought to us, I presume not at GAO's request but at the 
chairman's request.
    Mr. McIntosh. Mr. Waxman.
    Mr. Waxman. Yes, I yield to you.
    Mr. McIntosh. Yes. What I'm hearing you saying is, that's 
not a criticism of GAO but a criticism of the Chair.
    Mr. Waxman. You got it.
    Mr. McIntosh. OK. Good. Let me put on the record, I've been 
very careful not to say this administration is doing a worse 
job than previous administrations. In fact, if you read 
carefully, in my opening statement there is plenty of blame to 
go around.
    The problem is in the program and inherent features in the 
program which allow us not to do a good enough job for the 
American people in getting these sites cleaned up. I believe 
that this report is very telling about the nature of that 
problem. And I don't have any intention of saying that 
therefore this administration is to blame any more than any 
previous administration, but there is a flaw in the program 
that I think all of us should work together to try to fix.
    Mr. Waxman. I thank you for that statement, and then I want 
to ask Mr. Wholey if, given the chairman's statement--and we 
both want to make sure that there is a Superfund program that's 
working--should we learn from this GAO report, as the chairman 
indicated, that it's going to take, on average, 20 years to 
clean up a site that is discovered today? And should we learn 
from this GAO report that the reforms are not successful?
    So, therefore, we should do something to change the 
situation, because if those two statements are correct, that's 
pretty alarming and might well lead us to certain kinds of 
changes. But if those statements are not correct, we might want 
to evaluate the whole problem in another way.
    Mr. Wholey. Mr. Waxman, we don't have a GAO report in front 
of us.
    Mr. Waxman. A draft.
    Mr. Wholey. And it appears to me that Congress often has to 
take action before a GAO report will be finished. It just seems 
to me likely that the Congress, on certain occasions, will wish 
to have GAO testify on work in progress. We can't say that a 
GAO report says anything; it does not exist.
    Mr. Waxman. You are really trying to slip around. The 
report is going to be final in a month. We know what the report 
pretty much says. We have an indication it's probably not going 
to be changed.
    But given the report that we have now before us, if it were 
to be the final report and Congress were going to make some 
policy decisions on it, I don't think it's fair, and I think 
you indicated you don't think it's fair for us to read that 
report and conclude that EPA is going to take 20 years, on 
average, in the future, and that the reforms that are being put 
in place, which GAO specifically says in its testimony--Mr. 
Guerrero said in his testimony, he is not in a position to 
evaluate--we can't conclude because of that statement that the 
reforms have failed.
    I want to know what we should get from this report so we 
can make good policy. Let me ask Ms. Klemm, do you think that 
we--you've been here all day, and you've read the draft report, 
and you've looked at the methodology--do you think that's a 
conclusion that we should take from this GAO report in this 
hearing?
    Mr. McIntosh. Let me remind Mr. Waxman that we've asked 
these witnesses to come and talk about the methodology, not the 
conclusions of the report.
    Mr. Waxman. Given the methodology. Mr. Guerrero is here. If 
he wants to come forward and tell us--because, as I 
understand--if I'm wrong, Mr. Guerrero, I do want you to speak 
up. GAO did not tell us, on average, it's going to take 20 
years in the future. And GAO did not tell us that the reforms 
have failed. Mr. Guerrero, for the record, is sitting in the 
front row.
    Mr. McIntosh. Mr. Waxman, let me read for you the paragraph 
in the draft report, so everybody can know what we're operating 
off of.
    It says, ``At its current pace,'' which is a key qualifier, 
``EPA will take, on average, at least 21 years to complete 
cleanups at nonFederal sites whose discovery was reported in 
1995, 11 years for evaluating the sites before listing, plus at 
least 10 years for cleanups after listing. Completing cleanups 
of newly reported Federal sites would take at least 15 years. 
Furthermore, EPA's data show that the agency's efforts to 
expedite cleanups by applying the Superfund accelerated cleanup 
model, launched in 1992, are having no noticeable effect on 
reducing the total time required for Superfund cleanup.''
    That is the paragraph in the draft report that we are 
discussing.
    Mr. Waxman. Mr. Chairman, reclaiming my time and to respond 
to that point, I think that's a misleading statement from the 
GAO report. Now, maybe it's GAO that's making the misleading 
statements. I've accused the chairman, but maybe I shouldn't be 
so kind to the GAO.
    Ms. Klemm.
    Ms. Klemm. I would not make that statement from the result 
of the two charts to the right. I don't think they tell me what 
it will take in the future unless I know something more about 
the sites, their complexity, and what really has been the 
genesis of the numbers in the two blue charts.
    Mr. Waxman. Do you disagree with Ms. Klemm?
    Mr. Wholey. Mr. Waxman, I think I would refer you to this 
point which I made earlier, and I would make it again, that GAO 
does have available year-by-year, looking forward in time, what 
proportion of sites, once listed, have been completed within a 
5-year period. It would shed light on the issue that you're 
interested in having light shed on here.
    Unfortunately, by definition, we're not going to spend much 
time worrying about sites discovered in 1995, but at least 
there are data for several different years, and I think they 
are such years as 1986, 1987, 1988, 1989, 1990, what proportion 
of the sites listed in that year were cleaned up within a 5-
year period. At least that would show what the trend was, and 
it could help shed light on the question that you're trying to 
shed light on here.
    Mr. Waxman. I appreciate what you're saying, but of course 
all those years were before the reforms.
    Mr. Wholey. Fair enough. But I'm just saying that that 
method would allow us to also track the same thing for sites 
listed in 1991, 1992, 1993, and so forth.
    Mr. Waxman. I want to conclude, Mr. Chairman, because 
you've been very kind in allowing this extra time. The last 
sentence on page 7 of the GAO report says, ``The percentage of 
sites with 5-year completions increased from 7 percent for 
sites listed in fiscal year 1986 to 15 percent for sites listed 
in fiscal year 1990.'' So, in fact, GAO came to a different 
conclusion as to those previous years. It looks like one could 
read that sentence and be encouraged, things they are moving in 
the right direction.
    Mr. Wholey. That's correct. That's correct. But that was 
before--yes, that is correct, Mr. Waxman.
    Mr. Waxman. Well, Mr. Chairman, this has been a most 
interesting hearing. I don't know what value to put on the GAO 
report. I know GAO has always done quite good work in the past 
and has been helpful for policymakers. I'm going to have to 
look at this more carefully and evaluate it, as will others, to 
see whether this is going to be a helpful guide for us as we 
try to make policy decisions this year with the amount of 
information that we know and that the GAO has reviewed.
    Thank you.
    Mr. McIntosh. Thank you. I would look forward to additional 
information being provided by the administration and EPA, which 
they indicated they would be doing. In fact, if there is 
unanimous consent, we will hold open the record for 2 
additional weeks for information from EPA and some of the other 
witnesses--I know Mr. Mica said he had some additional 
documents he wanted to put in--and complete the record that 
way.
    Mr. Waxman. All Members?
    Mr. McIntosh. Yes, all Members will be able to submit 
additional information and statements. I think that one key 
thing that has come up in this last panel is that we need to 
break down those charts and look at the different 
subcomponents, as well. I am confident that GAO will do a good 
job in analysis of that.
    Thank you both for participating and helping us out with 
this.
    At this point, the committee will stand adjourned.
    [Whereupon, at 2 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]
[GRAPHIC] [TIFF OMITTED] T1517.116

[GRAPHIC] [TIFF OMITTED] T1517.117

[GRAPHIC] [TIFF OMITTED] T1517.118

[GRAPHIC] [TIFF OMITTED] T1517.119

[GRAPHIC] [TIFF OMITTED] T1517.120

[GRAPHIC] [TIFF OMITTED] T1517.121

[GRAPHIC] [TIFF OMITTED] T1517.122

[GRAPHIC] [TIFF OMITTED] T1517.123

[GRAPHIC] [TIFF OMITTED] T1517.124


</pre></body></html>
